<html>
<title> - AMERICA'S MAIN STREET: THE FUTURE OF PENNSYLVANIA AVENUE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
        AMERICA'S MAIN STREET: THE FUTURE OF PENNSYLVANIA AVENUE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2001

                               __________

                            Serial No. 107-6

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
75-253 PDF                  WASHINGTON : 2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
JOE SCARBOROUGH, Florida             ------ ------
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
                          Matthew Batt, Clerk
                      Jon Bouker, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 21, 2001...................................     1
Statement of:
    Dole, Hon. Robert (Bob) J., president, Federal City Council, 
      accompanied by Dr. Sparks, president, Federal City Council; 
      Anthony Williams, Mayor, District of Columbia; and Linda W. 
      Cropp, chair, Council of the District of Columbia..........    26
    Monteilh, Richard, president, District of Columbia Chamber of 
      Commerce; John M. Kane, chairman, Transportation & 
      Environment Committee, Greater Washington Board of Trade; 
      Albert Butch Hopkins, Jr., president, District of Columbia 
      Federation of Citizens Associations; J. Guy Gwynne, 
      president, District of Columbia Federation of Citizens 
      Associations; William N. Brown, president, Association of 
      the Oldest Inhabitants of D.C..............................   110
    Sloan, James, Acting Under Secretary for Enforcement, U.S. 
      Department of Treasury; Brian Stafford, Director, U.S. 
      Secret Service; John Parsons, Associate Regional Director 
      of Lands, Resources, and Planning, National Capital Region, 
      National Park Service, Department of Interior; Richard L. 
      Friedman, chairman, National Capital Planning Commission; 
      and Emily Malino, member, Commission of Fine Arts..........    62
Letters, statements, etc., submitted for the record by:
    Brown, William N., president, Association of the Oldest 
      Inhabitants of D.C., prepared statement of.................   133
    Cropp, Linda W., chair, Council of the District of Columbia, 
      prepared statement of......................................    42
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    16
    Dole, Hon. Robert (Bob) J., president, Federal City Council:
        Prepared statement of....................................    30
        Prepared statement of Hon. Patrick Moynihan from press 
          conference.............................................    59
    Friedman, Richard L., chairman, National Capital Planning 
      Commission, prepared statement of..........................    90
    Gwynne, J. Guy, president, District of Columbia Federation of 
      Citizens Associations, prepared statement of...............   129
    Hopkins, Albert Butch, Jr., president, District of Columbia 
      Federation of Citizens Associations, prepared statement of.   125
    Kane, John M., chairman, Transportation & Environment 
      Committee, Greater Washington Board of Trade, prepared 
      statement of...............................................   118
    Malino, Emily, member, Commission of Fine Arts, prepared 
      statement of...............................................    96
    Monteilh, Richard, president, District of Columbia Chamber of 
      Commerce, prepared statement of............................   113
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    23
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     5
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......    10
    Parsons, John, Associate Regional Director of Lands, 
      Resources, and Planning, National Capital Region, National 
      Park Service, Department of Interior, prepared statement of    84
    Sloan, James, Acting Under Secretary for Enforcement, U.S. 
      Department of Treasury, prepared statement of..............    65
    Stafford, Brian, Director, U.S. Secret Service, prepared 
      statement of...............................................    73
    Williams, Anthony, Mayor, District of Columbia, prepared 
      statement of...............................................    37

 
        AMERICA'S MAIN STREET: THE FUTURE OF PENNSYLVANIA AVENUE

                              ----------                              


                       WEDNESDAY, MARCH 21, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Platts, Davis of 
Virginia, Knollenberg, Norton, and Moran.
    Staff present: Matthew Batt, clerk; Robert White, press 
secretary; Heea Vazirani-Fales, deputy staff director; Russell 
Smith, staff director; Howard Davis, professional staff member; 
Marianne Adezio, legislative assistant; Jon Bouker, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mrs. Morella. Good morning. I want to welcome everyone to 
our hearing on ``America's Main Street: The Future of 
Pennsylvania Avenue.'' This is the first hearing of this 
subcommittee in the 107th Congress, and I am pleased to welcome 
our Members, some of whom have worked with us before and others 
with whom we look forward to working.
    As you know, Mr. Tom Davis, who is here, was the former 
Chair of the Subcommittee on the District of Columbia for three 
terms. Not only is he knowledgeable on Washington, DC, issues, 
but he is intently interested in the sound economic and 
financial health of the city. He conducted two hearings on the 
closing of Pennsylvania Avenue, June 1995, and then a year 
later.
    I also want to acknowledge and welcome Congresswoman 
Eleanor Holmes Norton, the ranking member of this subcommittee. 
Ms. Norton served on the Subcommittee of the District of 
Columbia with Mr. Davis and with me, and we all know of her 
special interest and expertise on Washington, DC issues. I look 
to her advice and counsel as we move this subcommittee ahead in 
continuing to revitalize the District of Columbia.
    Mr. Scarborough has also served on this subcommittee, and 
he will be at some point joining us, but he will be a member of 
this subcommittee.
    I also want to introduce Congressman Todd Platts from 
Pennsylvania. Though he is the newest Member, Mr. Platts is 
also vice chair of the subcommittee. I'm sure he is going to be 
a great asset to the subcommittee, as he has already shown, on 
District of Columbia issues. As a matter of fact, he was at the 
Anacostia Waterfront Initiative Kickoff, so I appreciate his 
being with us.
    It is also a special pleasure to welcome Chairman 
Knollenberg, Joe Knollenberg, who is Chair of the Committee on 
Appropriations, a very important committee to this 
subcommittee. He's very knowledgeable about the District of 
Columbia. He has attended many events, visited schools, has 
made it his special effort to know our Nation's capital full-
hand and totally.
    Also, we will have--he hasn't joined us yet, but Mr. Fattah 
is the ranking member of this Subcommittee on the District of 
Columbia on the Committee of Appropriations.
    I want to also welcome my colleague, Jim Moran, from the 
great State of Virginia, who, up until this year, was the Chair 
of the Appropriations Subcommittee on the District of Columbia, 
so thank you for being here, too, Jim.
    Chairman Burton, who has shown great interest in the issue 
of Pennsylvania Avenue would have been here, except for 
scheduling conflicts, and I do want to acknowledge his interest 
and thank him for his support on this issue.
    I also want to greet our witnesses, all of whom have had a 
long history regarding the closing of L'Enfant's grand 
boulevard. I want to thank them all for their interest. For 
some of you it is a passionate interest, and preparations 
you've made to share with us today are appreciated.
    Senator Dole, we welcome you as a witness. You have been 
placed first on the first panel because we know that you have 
an extremely busy schedule and could be called by the President 
for a sensitive assignment at short notice. We are, indeed, 
grateful to you for giving us your time. We acknowledge your 
deep interest in the subject.
    We also want to recognize the time constraints of the 
mayor, who just came in via the red eye, and the Council Chair. 
We really appreciate your presence, Mayor Williams and 
Councilwoman Cropp.
    Just to get a few administrative duties out of the way, 
first, you may be aware that the full committee procedure 
requires all witnesses to be administered the oath. Second, I'm 
going to encourage that opening statements and witness 
statements to be presented in about 5 minutes so that we will 
have time for questioning. All statements will be included in 
their entirety in the record, and there are some others who 
have submitted materials for the record.
    I'm going to start off with an opening statement of my own 
and then we'll hear from other members of the subcommittee.
    The purpose of our hearing today, as you all know, is to 
reexamine the blockading of Pennsylvania Avenue in front of the 
White House that took place nearly 6 years ago. We want to know 
how and whether the safety and security of the White House has 
been enhanced by that closure, and whether the Secret Service 
still believes keeping the avenue closed is necessary. We're 
going to look at the various negative aspects of the avenue's 
closing, the adverse impacts on the District of Columbia--on 
traffic flow, air quality, business activity, revenue loss for 
the city government. For the first time today Congress will 
formally be presented with several alternative plans for 
reopening Pennsylvania Avenue to traffic, while offering 
protection to the President, the First Family, and those who 
work in and visit the White House every day.
    A four-block stretch of Pennsylvania Avenue in front of the 
White House between 15th and 17th Streets, NW., was closed to 
vehicular traffic on May 19, 1995, under orders from then-
Treasury Secretary Robert Rubin. In closing the avenue, the 
Secretary cited his powers as head of the U.S. Secret Service 
and those given to him under title 18, section 3056 of the U.S. 
Code.
    A subsequent Justice Department opinion stated that the 
code, ``grants the Secretary broad authority to take actions 
that are necessary and proper to protect the President,'' 
including the temporary closure of any roads of the District of 
Columbia.
    Well, here we are nearly 6 years later, and that temporary 
security measure remains in place. A lot has changed in that 
time. The District of Columbia, thanks to the steady hands of 
Mayor Anthony Williams, Council Chair Linda Cropp, and the 
congressionally created Financial Control Board has undergone 
an economic and social rebirth. Congress, under the watchful 
eye of this subcommittee and its past chairman, Mr. Davis, and 
ranking member Congresswoman Norton, has addressed in a 
positive way its financial and oversight responsibilities for 
the Nation's Capital.
    In the White House we have a new President, one who 
campaigned to reopen Pennsylvania Avenue as a symbol of 
``freedom and greatness of America.''
    To be sure, the threat of terrorism that compelled 
Secretary Rubin and the U.S. Secret Service to close the avenue 
has not disappeared, and under any circumstances the mission of 
the Secret Service--to protect the President and his family and 
the White House complex--is challenging and demanding. It is 
the responsibility the Secret Service exercises diligently and 
without peer in the world.
    But it has become clear to the District's political 
community and the business leaders and to many of us in 
Congress that the blockading of Pierre L'Enfant's grand 
boulevard was a too-severe overreaction to the fear that 
engulfed many of us here in our country. This all happened 
following the tragedy of Oklahoma City.
    This temporary measure continues to present significant 
problems. From the economic and environmental standpoints, the 
closing of Pennsylvania Avenue has done real harm to the 
District of Columbia. By physically dividing the city, the 
closure has curtailed business activity downtown, forced 
commuters and tourists to spend more time on the road, and 
placed additional financial burdens from lost parking meter 
revenue to higher Metro Bus subsidies on the District 
government.
    While the Federal Government has reimbursed the city for at 
least some of the cost, I'm sure that Mayor Williams and 
Chairwoman Cropp would agree that the restitution hasn't gone 
far enough.
    As we will hear in a few minutes, Mayor Williams, 
Chairwoman Cropp, and the City Council strongly favor reopening 
the avenue, and just last week the Metropolitan Washington 
Council of Governments, which represents every local government 
in the greater Washington region, unanimously passed a 
resolution urging the President to return this vital east-west 
link in the District of Columbia to the use of District 
residents, to the use of commuters also, and the use of 
visitors.
    At my request, COG's transportation staff has provided this 
subcommittee with statistics showing that levels of dangerous 
ozone-depleting vehicle emissions rise when cars and trucks are 
forced to travel at slower speeds, which, of course, is the 
daily consequence of stalled traffic around Pennsylvania 
Avenue.
    The Washington metropolitan area continues to be a non-
attainment area under the Clean Air Act. I have some documents 
that, without objection, I would ask be included in the record 
in that regard.
    From a larger perspective, however, we must be vigilant in 
ensuring that the goal of responsibly protecting the White 
House and the lives of those who live, work, and visit there 
remains in balance with the aims of a free and democratic 
society. In closing Pennsylvania Avenue, I wonder what values 
we have compromised.
    The city, the White House, our national monuments stand as 
proud symbols of America's freedom, but the present state of 
Pennsylvania Avenue which makes the Nation's capital resemble a 
city under siege, a city devoid of the vitality of freedom, is 
an affront to our traditions of openness and accessibility, so 
it is time to reassess that decision. We need to take a look at 
other options and see if we can find a better solution.
    I would now like to yield to the very distinguished ranking 
member of this subcommittee, Ms. Norton, for her opening 
statement.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] T5253.001

[GRAPHIC] [TIFF OMITTED] T5253.002

[GRAPHIC] [TIFF OMITTED] T5253.003

    Ms. Norton. Thank you, Madam Chair. May I welcome you, Mrs. 
Morella, to your new post as Chair of this subcommittee and say 
how much I appreciate that Pennsylvania Avenue is the first 
hearing under your leadership.
    I'm also pleased to welcome my colleagues who have taken 
such a special interest in what the closure of Pennsylvania 
Avenue has done to the city and to the region.
    And, of course, I especially welcome today's witnesses.
    This is the first hearing of this session on Pennsylvania 
Avenue, but it is the fourth on this important subject. I am 
tempted to say we must stop meeting like this and do something 
about Pennsylvania Avenue; however, I believe the subcommittee 
must continue to meet and hold hearings until we find a way to 
return Pennsylvania Avenue to normal, downtown city life, as 
the founders intended and as a big, complicated city requires.
    I am particularly grateful for the bipartisan support the 
reopening of Pennsylvania Avenue has received. Each year since 
the avenue was blockaded, both the Senate and the House have 
agreed to appropriations language I originally requested in 
1996 that keeps the Park Service from converting the avenue 
into a park, as it originally intended. That final solution, of 
course, would have obliterated even the possibility that 
ingenuity, technology, and other state-of-the-art improvements 
could lead to greater access.
    I also appreciate the provision adopted by the Republican 
National Committee in its year 2000 platform calling for the 
immediate reopening of Pennsylvania Avenue, and I particularly 
appreciate the willingness of the Bush administration to remain 
open to lifting the barricades.
    As important as all of the testimony we receive today will 
be, I expect that most of it will differ largely by degree from 
past contributions to our hearings. The longer Pennsylvania 
Avenue has remained closed, the worse the burden has been on 
residents, businesses, commuters, and tourists. Environmental 
pollution has also been a notable casualty.
    What makes today's hearing different from our previous 
efforts is the recent development of a viable plan. The Federal 
City Council and the D.C. Building Industry Association have 
done what the Federal Government should have done. In the midst 
of the most serious fiscal crisis for the District of Columbia 
in 100 years, the Government closed down a vital artery of a 
great city. It is the Government that should have commissioned 
studies seeking alternatives. However, Government officials 
have apparently ceded authority to their least-objective 
agency, the Secret Service, which had tried to close 
Pennsylvania Avenue for decades, long before the genuine 
security risks that have emerged in recent years.
    However, faced with the Oklahoma City bombing of the Alfred 
P. Murrah Federal Building, the worst and most tragic terrorism 
in American history, I did not call for the reopening of the 
avenue until a plan by respected security experts responded to 
the concerns of the Secret Service, as stated when the agency 
closed the avenue. Instead, I worked with White House Chief of 
Counsel Erskine Bowles, the Department of Transportation, and 
the National Park Service to get E Street widened and opened to 
two-way traffic at Federal expense. We are very grateful that 
the two-way traffic on E Street has brought welcome if 
incomplete and inadequate relief.
    The most important thing this hearing can do today is to 
center its inquiry on the strengths and weaknesses of the 
Federal City Council plan. The fact is the Government has 
isolated security concerns and left the Secret Service and 
similar agencies to their own devices. Unaided by a broad array 
of assistance from the best minds in the society and state-of-
the-art innovations from the private sector, the Secret Service 
has been left to use the same barricades it would have used in 
1865 when the Service was established.
    As critical as I have been of the closed minds of the 
Secret Service and the Treasury Department, however, they are 
not the root cause of the problem before us. Our Government has 
allowed our country to become increasingly vulnerable to 21st 
century international terrorism, while leaving those 
responsible with only 19th century tools.
    The most important recognition that needs congressional and 
Presidential focus is that the problem we face is not merely 
Pennsylvania Avenue in the District of Columbia. The 
fundamental question America faces is how to maintain an open 
society when the threat from international terrorism is 
palpable.
    I will shortly introduce a bill intended to help us find an 
answer to one of the largest unsolved questions that has 
emerged to confront our society today: how to maintain the 
precious democratic value of openness while safeguarding our 
society from the forces of terrorism.
    Fortunately, I believe we can solve our Pennsylvania Avenue 
problem in the District without resolving the more-fundamental 
question it raises for our country. As we see the great capital 
of the United States being systematically closed down before 
our eyes, it is clear that Pennsylvania Avenue is only the tip 
of the proverbial iceberg. Let us demonstrate that we are 
capable of taking on the entire problem by first showing that 
we can safely open America's Main Street.
    Thank you, Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T5253.004

[GRAPHIC] [TIFF OMITTED] T5253.005

    Mrs. Morella. I would now like to recognize for an opening 
statement our guest today, Congressman Joe Knollenberg, who 
chairs the Appropriations Committee for the District of 
Columbia.
    Mr. Knollenberg. Thank you very much, Chairwoman Morella, 
for giving me the opportunity to appear on the dias--not on the 
dias, but whatever you call this thing up here--and I do 
appreciate very much the opportunity.
    We do have in the audience and on the panel some very 
distinguished people. We want to hear from them.
    I, as the chairman of the Appropriations Committee, have 
been early on advised of the concern about the closure of 
Pennsylvania Avenue and would I do something about it very 
quickly. Well, I see in the audience that we have a great 
number of others that have an interest, I think, that is 
probably somewhat similar.
    I think we have to balance what we hear here today--the 
idea of national security, the protection of the President. I 
know that it is imperative that the needs of the District of 
Columbia be recognized and responded to.
    Pennsylvania Avenue is clearly a vital artery servicing the 
city's downtown area, and one of the things I talk about 
frequently when I meet with some of the people that I see in 
the audience is one of the things that I would like to see as a 
goal in my chairmanship is to increase the economic development 
in this city, along with education and public safety.
    Now, you're talking about traffic. This traffic situation 
affects so many interests. It affects the business community, 
tourists, people who live and work in the District, and, of 
course, it impacts the President.
    We're going to hear today, I believe, several proposals, 
and I would encourage everyone to continue to work together to 
reach a consensus resolution.
    I am not going to ask any questions, but I am going to 
rhetorically pose--or not expect an answer, at least, from the 
panel before they have a chance to testify, but I am going to 
make at least a couple of rhetorical questions that I believe 
to be questions that are on the minds of everybody in this 
audience--and I see some faces that, as I said, I'm very 
familiar with.
    I appreciate very much Director Stafford and the time that 
he gave to us a short time ago to go over some of these points 
and the concerns, and I think that I still believe strongly 
that an alternative solution needs to be found to ease the 
traffic dilemma, with the economic consequences--and that will 
be talked about, I think, at some length--particularly for the 
people who live and work in the District of Columbia.
    I feel that options to exist which should be explored 
further. We're going to hear today, I think, something about a 
tunnel. That's one such option, and that, obviously, would do 
something about connecting traffic flow. What does it do, 
though, overall in terms of lessening the siege mentality of 
the White House being off limits for anybody within the range 
of a few hundred feet.
    The traffic flow, as I say, has to be--it is a concern 
right now, and whatever is done in the end, there has to be, I 
think, some balance suggesting that the White House is not off 
limits, that the White House is viewable, that traffic still 
moves, that economic harm is not done in terms of some of the 
traffic flow interruptions we have today. There's the issue of 
terrorism. I know that's on the rise and we talk about that in 
a number of ways. When I say it is on the rise, others would 
refute that there aren't as many incidents, but they seem to be 
larger and more-devastating when they do occur, and that is, of 
course, the concern I know that the Secret Service has.
    A couple of questions I would just raise. Here's a question 
I think might be appropriate. Do the leaders of the other law 
enforcement and intelligence agencies agree with the threat 
assessment? I'm talking about the FBI, the NSA, the CIA. And 
does everybody believe that a tunnel could be a viable 
compromise to restore traffic flow, as well as ensure security 
considerations? Has there been an accurate measurement of the 
economic loss? I'm sure that the mayor would respond and others 
that the economic harm has been substantial and the revenues 
that are lost by virtue of the rerouting has been substantial. 
And how will you all feel about a tunnel and the park situation 
after the conclusion of today's hearing?
    As I said, I do not want to see the United States and this 
city become a Nation under siege. It is naive to think that we 
can continue without making some security adjustments, but I do 
believe we have to move forward and we must compromise to reach 
an agreeable solution for all parties involved.
    I look forward to the testimony.
    Chairwoman Morella, thank you very kindly for allowing me 
to speak this morning.
    Mrs. Morella. Thank you. We look forward to working with 
you. Appropriations and authorizations should work together, 
and it is a pleasure to have you chairing that committee.
    In the spirit of bipartisan and regional camaraderie, Mr. 
Moran, who is here as a guest because he cares about this area, 
has allowed Mr. Davis to give his opening comment now because 
of his schedule.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you very much, and to my 
friend, Mr. Moran.
    For 6 years I was honored to serve as chairman of this 
subcommittee. Though I am now pleased to Chair the Technology 
and Procurement Policy Subcommittee, I am delighted to be 
continuing as a member of the D.C. Subcommittee, and as a 
member of the area delegation I will continue to maintain a 
very activist interest in the District of Columbia and its 
connection to the Washington region.
    Thank you, Congresswoman Morella, for providing such 
outstanding leadership as Chair of this subcommittee and for 
holding this hearing. I look forward to working with you as we 
strive to maintain our momentum for the Nation's Capital.
    This subcommittee has always taken a proactive approach to 
issues, and I'm certain that will continue. Of course, I'm also 
looking forward to working with the ranking member of the 
subcommittee, Delegate Eleanor Holmes Norton. We addressed many 
tough challenges together on this subcommittee, and we were 
always able to work together in a spirit of bipartisan 
cooperation. I'm confident we will continue to build in 
progress which we made.
    Pennsylvania Avenue is America's Main Street. It is 
appropriate that on this, the first full day of spring, we look 
at the issues surrounding Pennsylvania Avenue with fresh eyes. 
The need for Presidential security and for temporary 
arrangements to effect that security is not questioned. Let's 
look at the record.
    On May 19, 1995, an order was signed by then Secretary of 
the Treasury Robert Rubin prohibiting vehicular traffic on 
portions of Pennsylvania Avenue and certain other streets 
adjacent to the White House. In that order, the Secretary of 
the Treasury delegated to the Director of the U.S. Secret 
Service all necessary authority to carry out such street 
closings.
    This subcommittee held hearings on June 30, 1995, 1 month 
after Pennsylvania Avenue was closed. We held another on June 
7, 1996. In addition, I testified before the Senate 
Governmental Affairs Committee on June 26, 1996. I was also a 
sponsor, along with Delegate Norton, of H. Res. 458, which 
corresponded to a similar sense of the Senate resolution 
regarding the reopening of Pennsylvania Avenue.
    Congress has repeatedly gone on record in opposition to 
efforts by the National Park Service to make permanent changes 
to Pennsylvania Avenue that would preclude its eventual 
reopening. We succeeded in preventing permanent changes from 
being made.
    Recently, there have been positive initiatives, and we thus 
have the option now to take a fresh look at the entire matter.
    Pennsylvania Avenue is a major arterial road for the 
District of Columbia. It was part of the L'Enfant plan for the 
development of Washington, DC. Any closing or reopening of this 
historic street has enormous symbolic as well as practical 
impact.
    We are well aware that the Secret Service may temporarily 
close streets to traffic, detain private citizens, and engage 
in various other security practices in accordance with its 
mission, but it is also clear--and this was brought out by our 
hearings--that the Secret Service may not make permanent 
changes to city streets in the District of Columbia. That is 
very much the business of Congress and the District, working 
within the executive branch. That's why we are here today.
    The closing of Pennsylvania Avenue has cut the east-west 
link in the Nation's Capital. The disruption created is 
enormous. It continues to grow. The city has never gotten used 
to this disruption, to the divisions and loss of revenue which 
resulted. Residents, commuters, visitors, and the entire 
Washington region have been seriously impacted by an action 
they had no part in creating.
    The status of Pennsylvania Avenue is a very important 
regional issue as well as a national issue. This is so not only 
because of mutual concern about traffic and the health of the 
economic, but because of the environmental impact, as well. The 
District is part of a region-wide serious ozone non-attainment 
area. Our hearings confirmed that the horrendous and ever-
expanding gridlock created by the closing of Pennsylvania 
Avenue has an adverse impact on our air quality.
    All regional jurisdictions in Virginia, Maryland--not just 
the District--are compelled by Federal law to take actions to 
bring the region into Clean Air Act compliance.
    It has been my view from the outset that the Federal 
Government has a responsibility to help the District of 
Columbia deal with the adverse impacts of the unwanted Federal 
action in 1995 in closing Pennsylvania Avenue. It is my hope 
this hearing will serve to demonstrate the wisdom of working 
together to reopen America's Main Street.
    Thank you.
    Mrs. Morella. Thank you, Mr. Davis. I'm delighted you've 
continued to stay on this committee, because I look forward to 
your continued leadership in the past and in the future.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.006
    
    [GRAPHIC] [TIFF OMITTED] T5253.007
    
    [GRAPHIC] [TIFF OMITTED] T5253.008
    
    [GRAPHIC] [TIFF OMITTED] T5253.009
    
    [GRAPHIC] [TIFF OMITTED] T5253.010
    
    Mrs. Morella. Now I recognize my colleague from Virginia 
who was up until this time the ranking member of the 
Appropriations Subcommittee on the District of Columbia, Mr. 
Moran.
    Mr. Moran. Well, thank you very much, Madam Chairwoman, and 
particularly for conducting this hearing. I compliment the 
persistence and dedication of so many people within the 
Washington metropolitan area who never gave up on the idea that 
Pennsylvania Avenue could 1 day be reopened.
    Since its closure, we've learned of other possible avenues 
terrorists could use to attack the White House, from the air 
with a plane, by hand-held rockets and grenades from nearby 
rooftops, to an assault rifle by approaching the White House on 
foot. We respect the fact that the Secret Service has the 
daunting responsibility of protecting the President, the First 
Family, and the guests who visit the White House. No one would 
expect us to turn back the clock and reopen Pennsylvania Avenue 
as it operated before 1995.
    I think, however, the Secret Service should be receptive to 
proposals that address the primary threat posed by terrorists--
a suicide truck bomb--while allowing appropriate vehicle 
traffic to cross in front of the White House.
    I'm persuaded by the recommendations of the RAND study, as 
well as other proposals that involve gates, the realignment of 
the avenue, the use of barriers to block trucks, and circles 
that, all combined, slow down vehicle traffic and inhibit 
larger vehicles from approaching the White House.
    I think these recommendations should be reviewed and given 
very serious consideration by a panel of experts who can then 
judge them on their merits and weigh the level of risk each 
proposal might address.
    I defer to their judgment, but I think there is a way a 
redesigned Pennsylvania Avenue could be reopened to smaller 
vehicles without placing the First Family, their guests, and 
thousands of tourists who visit the White House at risk.
    Putting a barrier inside the city's urban core continues to 
have an intolerably adverse impact on residents and businesses 
in the Nation's capital. There are 29,000 drivers--which is the 
number that crossed in front of the White House prior to its 
closure--that have had to find other ways to get across town, 
adding time and additional cost to their daily commute.
    Some businesses have been inconvenienced. Others have been 
forced to relocate because they can no longer make deliveries 
or get from their offices to other locations around town in a 
convenient manner.
    I, H, and K Streets have become even more congested because 
of the additional traffic they have been forced to carry, and 
an added concern has been the additional response time 
emergency services and ambulances have encountered as they are 
forced to detour around the White House to deliver patients to 
George Washington University Hospital.
    These concerns are valid, but as important is the symbolic 
message we have sent around the world with the closure of 
America's Avenue. I think we sent the wrong message--that we 
are too willing to restrict our freedom--namely, our public 
access and open space--in response to any potential terrorist 
threat. We have allowed this threat to seriously disrupt our 
way of life within the very heart of the Nation's Capital.
    No one wants to do anything to jeopardize the White House, 
but I'm hopeful that this hearing can be the beginning of a 
process where we review and implement security measures that 
will protect the President while reopening Pennsylvania Avenue.
    And let me just say, as a post script, I know that the 
Secret Service doesn't get compensated for their aesthetic 
sensibilities, but whoever is responsible for those cement 
jersey barriers and the chain link fence there on H Street 
along LaFayette Square, that's a dump. It is a disgrace. All 
the littering and so on piles up there. We should all be 
ashamed of that. There's got to be a better way that people can 
see the front entrance of the White House in a way that they 
want to remember and that we can be proud of, and that doesn't 
exist today.
    Thank you, Madam Chairwoman.
    Mrs. Morella. Thank you, Mr. Moran. I agree.
    [The prepared statement of Hon. James P. Moran follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.011
    
    [GRAPHIC] [TIFF OMITTED] T5253.012
    
    [GRAPHIC] [TIFF OMITTED] T5253.013
    
    Mrs. Morella. I would now like to recognize the new vice 
chair of our committee, Mr. Platts, for any opening statement 
he may make.
    I want you to know I'm pleased to have you on this 
subcommittee.
    Mr. Platts. Thank you, Madam Chairwoman. I certainly 
greatly appreciate Senator Dole, Mayor Williams, and Chairwoman 
Cropp for appearing here today and preparing to offer 
testimony.
    As a new Member, my role today is very much to be an active 
listener and to gain knowledge of how we can balance the 
threats to the First Family and to the President while 
achieving the important priorities of reopening Pennsylvania 
Avenue, America's Avenue, for economic reasons, for 
transportation reasons, general quality of life reasons.
    I think, as has been already expressed, reopening 
Pennsylvania Avenue in an appropriate fashion will send again a 
message to the world that we won't be intimidated by terrorism, 
but, rather, we are a Nation that stands tall against such 
threats and I hope will once again allow us to have that avenue 
embody Abraham Lincoln's historic premise that we are a 
government of the people, by the people, and for the people, 
and not one that is going to be under siege from anyone.
    I look forward to your testimony and to working with you 
and Chairwoman Morella and all the members of the committee in 
finding a way that we can protect the President and First Lady 
and First Family, but in a way that reopens such an important 
avenue of our Nation.
    Thank you, Madam Chairwoman.
    Mrs. Morella. Thank you, Mr. Platts.
    Now we on the dias will do some listening, so I'd like to 
swear in the first panel, if you would stand, and Senator Dole, 
if there are any others who might be making comments, please 
stand.
    [Witnesses sworn.]
    Mrs. Morella. The record will indicate affirmation.
    I know, Dr. Sparks, that you are accompanying the Senator 
as executive vice president of the Federal City Council, but I 
will start now with Senator Dole, and then we will go to Mayor 
Williams and Councilwoman Cropp.
    Again, we are very, very honored. We appreciate your 
waiting to testify. We are very honored to have your presence 
here.
    Senator Dole, if you would commence.

  STATEMENTS OF HON. ROBERT (BOB) J. DOLE, PRESIDENT, FEDERAL 
  CITY COUNCIL, ACCOMPANIED BY DR. SPARKS, PRESIDENT, FEDERAL 
 CITY COUNCIL; ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
 AND LINDA W. CROPP, CHAIR, COUNCIL OF THE DISTRICT OF COLUMBIA

    Mr. Dole. I want to thank you, Congresswoman Morella, and 
others of the subcommittee and Ms. Norton, who does a good job 
in the District--we've had a few differences of opinion on the 
World War II Memorial, but otherwise we get along fine.
    And it occurred to me that if you get this finished you 
could deliver the tax cut more quickly to the President, too. 
That would be another advantage in getting this done, but 
without getting stuck in traffic.
    But I am here today in a totally nonpartisan capacity. I 
finally got to be president of something, and it's called the 
``Federal City Council,'' and we don't have any agenda. There 
are 170 members. They are men and women who live in the 
District or who have interest in the District, who the sole 
purpose of the Federal City Council is to make the Capital 
City, Washington, DC, the greatest capital in the world, and so 
we are here in that spirit. We don't have any--I have great 
respect for the Secret Service. I--they've worked--I've worked 
with them and they were very good to me in 1996. I hoped to 
keep them longer, but, you know, they left. [Laughter.]
    But, having said that, I think it is--I think, as everybody 
has indicated up here, we are not going to go back and do--open 
it as it was in 1995. We know there has to be a different way 
to do it. And we obviously have plans, and the plan we'd like 
to present just very quickly would be the one that we think has 
some merit. Maybe there are some ways we could improve it.
    But I don't want to--I think you recognized Ken Sparks, who 
is the director of the Federal City Council; David Perry, who 
works with Ken; and also Gary Haney with Skidmore Owings; and 
Harvey Joiner with Parson's Co. will be here if there are any 
technical questions on what we hope to submit.
    I would ask that my--I think you've already asked that the 
statement be made a part of the record, and I'll skip some of 
the information because it has already been mentioned by 
members of the committee and other guests.
    But we understand, of course, the importance of protecting 
the President, those who work in the White House, those who 
visit the White House, but it seems to me that now, more than 5 
years later, it is clear to us that the continued closure of 
Pennsylvania Avenue not only has cut the city in half, the 
Nation's Capital in half, but, more importantly, has--I think 
Ms. Norton said it--become to symbolize that we are giving in 
to the fear of terrorism, and nobody knows when it will happen, 
when it will strike, but we've come a long way from the days 
when Presidents used to open up the White House and greet all 
the visitors, nobody had to have a pass.
    We understand their reasons for security, but we also 
understand there is a reason, where possible and where it is 
consistent with security, to open up the place as much as you 
can.
    We're a lot of good people. We're self-confident people. We 
don't want to be held hostage to the threat of terrorism, and 
we believe there is a responsible, reasonable way in which 
Pennsylvania Avenue can be reopened.
    And I want to make it clear, as I said, we're not saying go 
back and just open her up like it was in 1995.
    Our work--as part of our work, the Federal City Council 
commissioned the RAND Corp. to examine security measures 
currently in place in the District and how they relate to the 
actual or perceived threat, and let me just sort of skim over 
RAND's principal findings.
    First of all, they noted that we spend more money, that we 
have better technology, we've strengthened the country's 
counter-terrorism capabilities because of that, and, because of 
the steadily worsening situation, there are far fewer terrorist 
activities now because of all the things we're doing. That's 
No. 2.
    And we've seen, in contrast, the forward thinking that 
characterized the Clinton administration's overall approach to 
the terrorist threat. The issue of physical security around the 
White House was treated in a way that was both static and one-
dimensional.
    I think that now we also--they find in the study that the 
justification for continued closure now extends beyond the 
original explanation of assuring the safety of the President 
and his family, and I think that is important.
    There have been a number of measures. How do you protect 
the President? What happens when he leaves the White House, 
when he leaves the grounds, when he goes to another city, 
whatever, and we understand all this is very important and 
certainly must be paramount. We're not here to dispute that at 
all.
    So just let me sort of summarize what we believe and what--
again, our proposal is certainly open to amendment or change or 
whatever, and it is based on not just members of the Federal 
City Council, but experts who have given their input.
    First of all, we would narrow the configuration from six 
lanes to four lanes, two lanes in each direction, without 
adversely affecting the avenue's capacity to move traffic.
    If you do that, the stand-off distance--and I wonder if we 
might just point that out there--the stand-off distance from 
the south curb of the avenue to the White House under a 
narrowed east-west alignment would be greater than the length 
of a football field, or more than three times the stand-off 
distance applied to U.S. Embassies overseas to protect them 
against vehicle-borne explosive attacks. It's about, what, 300 
feet--385 feet. That's a pretty good distance.
    Second, we favor curbing the roadway to the north between 
Madison Place and Jackson Place. And this idea wasn't 
suggested--it was suggested a long time ago by Thomas Jefferson 
back in 1802, and it is referred to as the Jefferson Bow. Now, 
that's the original back in 1802. You sort of see the bow 
there, and then move it--let's see the latest, how it would 
look there.
    In comparison, the current east-west alignment of 
Pennsylvania Avenue, the introduction of the Jefferson Bow 
would have the further benefit of moving the roadway an 
additional 60 feet away from the White House, increasing the 
stand-off distance. I think with this it is 385 feet with the 
Jefferson Bow. Without it, it is about 325.
    So we recognize there also is a relationship between the 
size of any vehicle and what they might be transporting and 
what damage could occur, and we would bar any large vehicles in 
the portion of Pennsylvania Avenue in front of the White House.
    And to achieve this goal we recommend a number of measures, 
beginning with enhanced visual and electronic surveillance of 
the entire White House precinct, and next we recommend the 
placement of attractively designed manned kiosks at both 15th 
and 17th Street. Would you point those out? The intersection of 
Pennsylvania Avenue--and we also are recommending that two 
pedestrian bridges be constructed slightly in-bound of the 
intersections with Madison Place and Jackson Place, and these 
bridges would have a vertical clearance of approximately 7 
feet, 6 inches. The bridges would permit pedestrians to move 
easily between LaFayette Park on the north side of the avenue 
and a larger landscaped area on the north side of the White 
House fence. That would be right there.
    The pedestrian bridges would be structurally capable of 
stopping any large vehicle in its tracks and could be designed 
so that they could be picked up and removed by a flat bed truck 
for the inaugural parade. I'm not certain that's very 
practical, but that could be done.
    The pedestrian bridges, the manned kiosks, the enhanced 
surveillance, combined with the physical changes in the 
configuration of Pennsylvania Avenue, itself, would permit the 
controlled reopening of Pennsylvania Avenue while providing an 
appropriate level of security for Presidents.
    I was asked--in fact, I asked, myself, how long would this 
take? And we're not talking about next week or next month. It 
would probably take, if I understand it, maybe a couple of 
years. That's a long time to wait, but if we're going to 
combine the security with other aspects I think that would be 
some--maybe it could be speeded up.
    And we don't have to keep it open 24 hours a day. You could 
also close Pennsylvania Avenue to all traffic from, say, 10 
o'clock at night to 6 o'clock in the morning, and I don't 
believe that would greatly impair the movement of traffic in 
downtown Washington.
    So it seems to me, Madam Chairman, that this is not the 
only developed scheme, plan, but this is a plan that we believe 
deserves careful attention, and we would hope and we know the 
Secret Service will--knows the plan and may address it in their 
testimony.
    But our--we appreciate this opportunity. We are available 
for consultation. We are available at any time to meet with the 
mayor and chairman of the Council, members of this committee, 
members of the Secret Service, and people in the White House we 
hope to have a meeting with later on. But we thank you very 
much, and we look forward to hearing the rest of the testimony.
    Mrs. Morella. Thank you, Senator Dole.
    [The prepared statement of Hon. Bob Dole follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.014
    
    [GRAPHIC] [TIFF OMITTED] T5253.015
    
    [GRAPHIC] [TIFF OMITTED] T5253.016
    
    [GRAPHIC] [TIFF OMITTED] T5253.017
    
    Mrs. Morella. We appreciate the fact that this is the first 
hearing where we have heard those recommendations and 
appreciate the work of the Federal City Council.
    Mr. Mayor, Mayor Williams, we are delighted to hear from 
you, sir.
    Mayor Williams. Thank you for the opportunity to speak to 
you today on the reopening of Pennsylvania Avenue.
    I'd also like to acknowledge President Dole, otherwise 
known as Senator Dole, for his continuing support in so many 
ways for the District, from supporting our voting 
representation in Congress to testifying today on our behalf. 
He is a champion for our city and we appreciate it, and I want 
him to know that.
    I'd also like to thank Council Chair Linda Cropp for her 
support in this important endeavor. I think the fact that this 
is a panel of local and national officials speaking with one 
voice, speaking with one bipartisan voice I think speaks loud 
and clear and speaks volumes about the importance of striking 
the right balance between transparency and openness and 
protecting the security and safety of our First Family.
    Members of the committee and Senator Dole have spoken 
eloquently on that point, and I'm just going to shed some light 
and offer some brief comments to try to complement and augment 
the testimony and remarks already given, particularly as they 
relate to commercial impacts and traffic and environmental 
impacts.
    Downtown Washington is the third-largest commercial office 
market in the United States after New York and Los Angeles. 
This office market includes the area from the base of Capitol 
Hill through our west end. With the closing of Pennsylvania 
Avenue and the limited west-to-east access on E Street, the 
heart of our city has become literally two separate downtowns, 
adding up to 20 minutes in a cross-town rush-hour commute.
    The only way drivers can travel from east to west is by 
navigating the eight-block barricade around the White House, a 
barricade that has turned westbound I Street into a rush hour 
zone from morning until night. And all of us have been on I 
Street. We all know I Street is an example of the gridlock that 
has been created by this closure.
    Commercial activity in a downtown thrives in a connected 
environment, particularly in this knowledge-based economy, when 
people move to the District because of our assets--the Federal 
presence, the museums, the Library of Congress, the National 
Geographic, a well-educated work force. These are all assets in 
a knowledge-based economy. All this requires and demands an 
interconnectedness and an interdependentness [sic] to a degree 
we've never seen before. We're actually retreating with closing 
Pennsylvania Avenue, because by closing Pennsylvania Avenue and 
disconnecting our city from its center, we've experienced 
untold financial impact on downtown business development.
    Well, consider the eastern end of our downtown. The 
Interstate 395 tunnel right now is a natural blockade to the 
eastward expansion of our downtown growth. Commercial 
development is virtually nonexistent on the eastern side of the 
395 tunnel, a problem to which all of us are trying to address 
in our downtown action agenda.
    But our downtown action agenda is going to be for naught 
and our efforts are going to be for naught if we continue to 
have this barricade around the White House which is cutting 
this organism, if you will, this community ecosystem, if you 
will, in half, this barricade--our residents, our commuters, 
our business leaders all cutoff from the city's core.
    If you are on one part of the city and you are working with 
another part of the city, yes, we have an Internet, yes, you 
can communicate, but you can't fax lunch, you can't fax a fire 
truck. I mean, you need to move goods and services and 
equipment, and that's why it is so important to have this 
avenue open.
    Long and short is, for this city to continue to grow, we 
must be able to move people and goods from downtown to the 
corners of the District, and that means a reopened Pennsylvania 
Avenue, the same way it means an open 5th Avenue, an open 
Michigan and Chicago, an open Market Street in San Francisco. 
This is our main thoroughfare that's got to be open.
    Which brings us to traffic--in addition, the closure of 
Pennsylvania Avenue has further congested our downtown streets 
and added to the daily stress of navigating our city. The 
change from two-way to one-way streets and from eastbound to 
westbound circulation has increased gridlock and stalled the 
growth of adjacent businesses in the city.
    Prior to the closure, the U.S. Department of Transportation 
designated Pennsylvania Avenue as a thoroughfare on the 
national highway system. With the closure, traffic progression 
was diverted to adjacent streets like H and 9th Streets, NW., 
which were already carrying 27,000 vehicles per day, and today 
the increase in traffic has left more vehicles sitting in idle, 
emitting carbon monoxide and other toxins into the air.
    The District is already a non-compliant zone with the EPA, 
the Environmental Protection Agency, for ozone. By opening the 
avenue, we're going to reduce emissions and air quality will 
improve.
    All of us have traveled through the District. We all use 
our streets, just like our residents, commuters, and visitors, 
to get to work, attend social events, meet family and friends 
for dinner, and go home. We've all been late, too. We've all 
missed events because we couldn't continue up Pennsylvania 
Avenue. That's a fact, practical aspect of this. We all have 
firsthand knowledge of how important access to Pennsylvania 
Avenue is to those who drive and work in the District.
    The closure has literally--and this is what I want to 
emphasize in complementing the other remarks that have been 
made--this closure has literally cut one-half of the city off 
from another. In a city that has already got the same social 
tensions of other cities in terms of class tensions, racial 
tensions, to add another physical dimension to this divide is 
overloading the camel, if you will.
    I think as we continue to re-knit the city, reunite our 
city, build one city, our Nation's Capital--one union, as 
President Lincoln would say--our ability to use Pennsylvania 
Avenue is fundamental to our social unity and our economic 
viability.
    All of our citizens in our city understand the need to 
protect the President and the First Family, but we believe that 
the plan that is put forth by the Federal City Council does a 
brilliant job in making a balance between these two primary 
concerns.
    The long and short, Madam Chair, is that the citizens in 
every great city have free access to their most important 
monuments. In London you have free access to the monuments 
there. In Philadelphia you can drive past Independence Mall and 
the Liberty Bell. And, as Congressman Morella will tell you, 
our Chair will tell all of us, in Annapolis you can park your 
car on the brick street next to the State House.
    We are the living, breathing symbol of a strong, self-
determinant--Senator Dole said self-confident--democratic 
Nation. It is the embodiment of all that can be good about 
government. We are the capital of the world. People should be 
able to drive past the people's house, the White House in 
Washington, DC.
    Thank you.
    Mrs. Morella. Thank you very much, Mayor Williams. We 
appreciate your testimony.
    [The prepared statement of Mayor Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.018
    
    [GRAPHIC] [TIFF OMITTED] T5253.019
    
    [GRAPHIC] [TIFF OMITTED] T5253.020
    
    Mrs. Morella. I would now like to recognize for comments 
Councilwoman Cropp.
    Ms. Cropp. Thank you very much, Chairman Morella, 
Congresswoman Norton, and other members of the subcommittee. I 
am pleased to testify at this oversight hearing on the impact 
and status of the closing of Pennsylvania Avenue in front of 
the White House. I am happy to be joined in partnership with 
Senator Dole from the Federal City Council and our Mayor 
Anthony Williams.
    Let me express my deep appreciation to you, Madam Chair, 
for convening your very first hearing as Chair of this 
subcommittee on a subject matter that is so important to the 
citizens of the District of Columbia and also in the region, 
and this is one that also impacts the Nation, as a whole, as 
visitors come to their Nation's Capital.
    District of Columbia residents, businesses, and visitors 
have suffered for nearly 6 years with constant traffic gridlock 
that you've heard about, the uncompensated economic costs, and 
loss of freedom symbolized by the vehicular barricades that 
have been imposed between the east and west ends of America's 
Main Street and our downtown.
    I am here to reiterate the Council's support for reopening 
Pennsylvania Avenue to vehicular traffic.
    I also wish to reiterate our previous request for Federal 
dollars to pay for a comprehensive study which would quantify 
and compensate the District for each adverse effect of this 
street closing upon the District's economy and our 
environmental, historic, transportation, and parking resources.
    We are appreciative of the action taken by the 106th 
Congress of the United States in wake of the National Park 
Service proposal to create President's Park on Pennsylvania 
Avenue to restrict the use of appropriated dollars toward 
planning, design, or construction of any permanent non-street 
improvements to Pennsylvania Avenue in front of the White 
House.
    The District is also appreciative of the recent restoration 
of the two-way traffic on E Street behind the White House. We 
never quite understood how the expectation was that some kind 
of disaster would only go from west to east. Two-way traffic is 
an appropriate approach, and it certainly has alleviated some 
of the problems.
    We remain hopeful that President Bush will fulfill the 
Republican party platform position to reopen Pennsylvania 
Avenue by ordering the U.S. Treasury Secretary and the Secret 
Service to restore this most important of public streets to its 
historic use as soon as possible.
    Madam Chair, I would like to submit for the record a copy 
of the resolution which was adopted just last week by the Board 
of Directors of the Metropolitan Washington Council of 
Governments Chaired by my colleague, Carol Schwartz, in which 
representatives of jurisdictions in our entire region have 
urged the Bush administration to reopen Pennsylvania Avenue to 
vehicular traffic.
    With your permission, I would also like to submit into the 
record excerpts from two resolutions on the Pennsylvania Avenue 
issue which were unanimously approved by the D.C. Council as 
early as 1995 and 1996, because the provisions expressed then 
by the Council are still applicable today and will be until 
Pennsylvania Avenue is reopened.
    Mrs. Morella. Without objection, both resolutions will be 
included in the record.
    Ms. Cropp. Thank you. And the Council of Governments.
    Mrs. Morella. Council of Governments.
    Ms. Cropp. Thank you.
    The Council clearly understands the need to protect the 
President and the First Family; however, it makes the following 
findings and recommendations regarding the Federal Government's 
temporary restriction of vehicular access on Pennsylvania 
Avenue: that it affirms the safety of the President; these 
restrictions have resulted and will continue to result in 
significant adverse impacts on our residents and our 
businesses.
    You have heard how this has just really bifurcated the 
city. It has had complete and total gridlock--H Street, I 
Street, K Street, down almost to the monuments, it is traffic, 
a traffic congestion nightmare. It is a parking lot. The only 
thing that would possibly be beneficial, if we could just, 
since it is a parking lot, put up parking meters and at least 
get some revenue from it, but outside of that it has had a 
terrible, horrible impact on the District of Columbia.
    Let me also state that we appreciate the Federal Cities 
Council's presentation of a plan. That is one option. There's 
another option that another architectural firm has done, 
McCrery and Lohsen, I believe it is, where they also have a bow 
in front of the White House. There are gates there where, if 
necessary, at certain opportune times there is a need for some 
restriction, that could happen. If you do not have that, I 
would submit that.
    I think there are many options that we could take to try to 
secure the White House and the President and the First Family.
    In closing, let me just suggest--picture this: 9 through 6 
p.m., 7 p.m., all of a sudden a four or five-block stretch of 
Rockville Pike, Wisconsin Avenue, or King Street in Virginia is 
closed down. That is the same impact that we have had in 
Washington, DC, with Pennsylvania Avenue closed down. It is a 
major artery in this city. It connects the east side to the 
west side. It helps residents of the District of Columbia to 
move through. It is a business section. It has an economic 
impact with the streets being closed. If Wisconsin Avenue was 
closed, it would severely hamper that particular area of 
Maryland. If King Street was closed, Route 7, it would severely 
impact in a negative way Virginia. The same thing has happened 
to the citizens of the District of Columbia, the businesses 
within the District, and I say those who even come to visit the 
Nation's Capital.
    Madam Chair, thank you so very much for this hearing. We 
look forward to positive action and outcomes from this hearing.
    Thank you.
    Mrs. Morella. Thank you very much, Ms. Cropp, for your 
testimony.
    [The prepared statement of Ms. Cropp follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.021
    
    [GRAPHIC] [TIFF OMITTED] T5253.022
    
    [GRAPHIC] [TIFF OMITTED] T5253.023
    
    [GRAPHIC] [TIFF OMITTED] T5253.024
    
    [GRAPHIC] [TIFF OMITTED] T5253.025
    
    [GRAPHIC] [TIFF OMITTED] T5253.026
    
    [GRAPHIC] [TIFF OMITTED] T5253.027
    
    [GRAPHIC] [TIFF OMITTED] T5253.028
    
    [GRAPHIC] [TIFF OMITTED] T5253.029
    
    Mrs. Morella. I appreciated the fact that you tried to make 
it all so close to home with your analogy, but I can tell you 
that the Rockville Pike may not be officially closed, but with 
traffic sometimes it appears to be closed.
    Thank you.
    I thought what we would do is each of us take 5 minutes in 
asking questions, then go back for another round if you all 
have some time to respond to the questions.
    I guess I'll start off.
    Again, Senator Dole, I appreciate your testifying. I 
appreciate the fact that you are president of the Federal City 
Council.
    Mr. Dole. Right.
    Mrs. Morella. And the fact that the RAND report that you 
commissioned gives some, I think, alternatives that we should 
look at very seriously.
    You know, we're going to hear testimony also from the 
National Capital Planning Commission, and they are going to 
tell us about a task force that they are establishing now to 
look at, I guess, I call it ``security streetscape,'' and I 
wondered if you--I wonder whether there is a response from the 
Federal City Council with regard to supporting that kind of 
task force. I think it will take, san, 4 months.
    Mr. Dole. I wouldn't have any problem with that, but I 
might ask if it is OK to have Ken Sparks come.
    Mrs. Morella. Indeed.
    Mr. Dole. He deals with this on a daily basis and has more 
information.
    Mrs. Morella. Great. Thank you.
    Dr. Sparks.
    Mr. Sparks. We are pleased to have the National Capital 
Planning Commission looking at this. We've briefed the 
commission on our plan at a previous session, and they've set a 
short timeframe for looking at it, and we think it is something 
that could be very constructive.
    Mr. Dole. I think that's a point. We don't want to start 
studies, task forces out into the future with--because, as the 
mayor pointed out, the problem is immediate, and it is going to 
take some time in any event.
    Mrs. Morella. Yes. So you would be assured that they would 
not be duplicating the report that you have----
    Mr. Dole. Right.
    Mrs. Morella [continuing]. Submitted to us, and that maybe 
they would be utilizing you also in terms of the work that they 
do.
    Mr. Dole. But, as we know, I mean, certainly no plan is 
perfect. It may be other people with their input may have some 
ideas that would improve our plan or someone else's plan, or 
maybe even what the Secret Service may propose.
    Mrs. Morella. I would also like to hear from the Mayor and 
from Ms. Cropp, too, with regard to your response to that 
report that the Federal City Council has presented, as well as 
what the National Capital Planning Commission is looking to do 
with their task force.
    Mayor Williams. I would welcome, Madam Chair, we welcome 
the task force, National Capital Planning Commission, but I 
would echo what Senator Dole has said. I would look to the NCPC 
conducting as quickly as possible a report that would augment 
and complement the work already done by the Federal City 
Council, as opposed to plowing over the same ground and just 
adding additional delay.
    There are some areas that would warrant some work, and we 
welcome them looking at them, but I don't think we need another 
redundant report.
    Mr. Dole. I understand they are going to limit their review 
to 4 months, so that's fairly quick in this town, 4 months.
    Mrs. Morella. You're right. Maybe it could be done even 
faster, too, since so much has been done for the last 5 years.
    Ms. Cropp.
    Ms. Cropp. Yes. I join with the earlier speakers that speed 
is extremely important. We have the Federal Cities report. NCPC 
will be looking into it. We have suggestions and plans by other 
entities, also, that I believe NCPC has available to them. They 
can look at the Federal Cities report, they can look at the 
Lohsen McCrery report and other reports that are already 
available and tweak each one of them and hopefully very quickly 
come up with a recommendation.
    Mrs. Morella. Mayor Williams, have you--and this would be 
for Councilwoman Cropp, too--have you heard from residents, 
local residents, with regard to the opening or the closing of 
Pennsylvania Avenue? Have they been apathetic? Have they felt 
strongly about it? Has it come to your attention in many ways?
    Mayor Williams. I have been--and I'm sure Chairman Cropp 
would say the same thing--at hundreds of community meetings, 
and the reopening of Pennsylvania Avenue is taken as a given. I 
mean, it is taken as a given in our platform, it's taken as a 
given. It's part of our mission, my mission for office. And, 
while it is not stated again and again explicitly by citizens 
during meetings, the mere mention of it brings acclimation. I 
mean, there is this widespread support for it in the city 
because there is the transportation impact. In speaking to 
business groups, there is widespread recognition of the 
negative economic impact it has had on our local downtown 
business community, because they recognize something really 
important. Again, you take two ingredients of a great city--a 
great downtown and open, vibrant, beautiful corridors and 
boulevards--and you are harming both of them with the status 
quo that we have right here. You're cutting in half one of our 
major thoroughfares. You're cutting in half our downtown.
    Ms. Cropp. I concur with that, and the citizens really 
would like to see a difference.
    We tend to think of Pennsylvania Avenue only having the 
impact in that 15th Street say may to 20th Street area, but, 
quite frankly, in downtown we are feeling it as far back as 
11th Street because you get that backup down at 8th Street, and 
in downtown New York Avenue at 11th Street, so that's our 
central business district in the downtown area.
    So even those citizens who may not need to go on the other 
side one way or the other from downtown 11th Street it has had 
a negative impact on our traffic, so the citizens just wait 
anxiously for it.
    My e-mails are full. We hear it constantly when you go to 
public meetings.
    Mrs. Morella. My 5 minutes are up. As we go through the 
questioning, I will be back with other questions after we hear 
from our other two members.
    I am pleased to recognize our ranking member, Ms. Norton.
    Ms. Norton. Thank you, Madam Chair.
    Senator Dole, let me just say that if you were determined 
to be president of something, I am pleased that you decided it 
was going to be the Federal City Council, because the job you--
I can't say that I wanted you to be President of the United 
States, though I regard you as an American who has made 
inestimable contributions to this country, and now for you to 
continue to make those contributions by making them to the 
capital of the United States is something that every citizen of 
this city greatly appreciates very much. Thank you for your 
work on the Council.
    May I ask you if you have had the opportunity to brief 
anybody associated with the White House on the Federal City 
Council plan or if anybody associated with the plan has had 
that opportunity.
    Mr. Dole. We've made a request that we have an opportunity 
to meet with the chief of staff and hopefully others at the 
White House, and that request is pending, so we think it will 
happen, and we believe that, consistent with what you mentioned 
in your earlier testimony, the Republican platform, there 
should be a willingness to talk to us and have us at least 
present our plan, present the RAND plan with our experts, and 
then let the White House people make recommendations.
    Ms. Norton. Well, we were able to meet at the highest 
levels of the White House in the last administration. I very 
much regret that the last administration did not move on this 
plan. And I will continue to press this plan, because you have 
done a public service, a service one would have expected the 
Government to do, as I indicated.
    Mayor Williams and Council Chair Cropp, when this avenue 
was closed precipitously, I was very concerned at the fallout 
of expense to the District of Columbia. Now, as I understand 
it, the District was compensated for a few weeks for the 
expenses of police who had to redirect traffic; is that true?
    Mayor Williams. That's my understanding that for a few 
weeks, but that there is now no real general reimbursement for 
the closure, nor has there been a systematic analysis of the 
economic impact, although I think it is apparent even to 
adherents of its closing that there is an economic impact.
    Ms. Norton. Yes. You say in your testimony untold costs, 
and it is very difficult to get an economic model that can 
somehow calculate the costs of business not done, of business 
turned away, the cost of property values, the cost to 
commuters, the cost in time lost. That's a heavy challenge.
    I do note--thank you, Federal Government--that the Federal 
Highway Administration apparently allowed the District of 
Columbia to use its own highway funds to cover the cost of 
traffic control devices that had to be put up. Do you have any 
figures, other than the figures that we were given a few years 
ago of $750,000 annually in the loss of parking meter and 
parking fine revenue because parking has been restricted on the 
streets surrounding Pennsylvania Avenue?
    Mayor Williams. I can look and see whether there has been 
an update to that and get that information to you. I'm not 
aware that there has been.
    Ms. Norton. We'd very much appreciate receiving that 
information.
    Senator Dole, perhaps some of your experts could step 
forward. I'm particularly interested to question some of the 
RAND security experts. I'd like to know, for example, whether 
they believe that closing down a high-profile part of a city 
shifts the risk to other high-profile areas. For example, if 
you close down--if you are a terrorist and they close down your 
ability to get to the White House, does that raise the profile 
of the House and the Senate theoretically, at least?
    Mr. Dole. That is a good question.
    Mr. Sparks. Congresswoman Norton, we do not have a RAND 
representative with us this morning.
    Ms. Norton. Oh, my goodness, I'm sorry you do not.
    Mr. Sparks. But I don't know that they addressed that 
particular issue, that the barricading of the White House 
shifted the risk to elsewhere in the city.
    Ms. Norton. I know they didn't address it. That's why I 
wanted to examine some experts who might have the background--
--
    Mr. Dole. Maybe we should get that information.
    Ms. Norton. I would appreciate that.
    We lack independent expert evidence, and so does the 
Federal Government. It relies on its own experts, and its own 
experts have a mission. They're not supposed to advise them 
anything except what they'd advise them. That puts us at a 
disadvantage.
    I have been briefed by the Secret Service and they have 
changed their stated reason for closing the avenue. They were 
real clear they closed the avenue because of the threat of 
truck bombs. Now they say we should leave it closed because 
there could be some cars. I suppose if we take care of the cars 
through the ingenuity of groups like you, that somebody in the 
Secret Service will find that if you rode a bicycle past the 
White House you could possibly damage something there. I mean, 
they really do leave the impression that the goal post is being 
moved here.
    I'd like the view or the view you may have from having 
spoken with your experts about whether your plan poses a risk 
from smaller vehicles that are not trucks but perhaps are cars.
    Mr. Dole. You know, we made the observation--I did in my 
statement--that we thought there had been a change in Secret 
Service policy, going from trucks to small cars. And I think 
our study does include reasons that we believe that you can 
still have the small cars and protect the safety of the White 
House and the President and others who work there.
    Mr. Sparks. Ms. Norton, our expert witness today from 
Skidmore Owings and Merrill has been responsible for doing 
buildings that require a fair amount of security, and his name 
is Gary Haney, and I suggest that maybe he respond to your 
question.
    Ms. Norton. We'd appreciate it.
    Mr. Haney. Thank you, Ken.
    The portion of our plan that addressed the issue of vehicle 
size was the two bridges, the addition of the two bridges--not 
that we have any great love of the notion of bridges over 
Pennsylvania Avenue, but it seemed to be a passive way to 
limit--by ``passive,'' I mean a non-mechanical way--to limit 
the size of the vehicle.
    We chose the height of about 7 feet, 6 inches, as Senator 
Dole mentioned in his testimony, as the maximum height for 
typical passenger vehicles. It also happens to be the typical 
height of a standard garage door, residential garage door.
    So that was our intention of using the bridges, picking 
that height, and limiting at least to that size vehicle.
    Now, there could be stretch limousines or other things that 
would increase the carrying capacity of a vehicle that size.
    Also, we, with the increase of the stand-off distance, we 
are not privy, as I think is appropriate, to the measures that 
currently protect the White House from blast, and I think a 
comprehensive study would have to be a combination of those 
measures that exist today with the increased stand-off distance 
relative to the size of vehicle that could pass beneath the 
bridge.
    Ms. Cropp. Madam Chair, if I could add, I had a briefing by 
individuals who also looked into this issue, and I would like 
to be able to get that information to you.
    One of the issues that they had raised was the bow shape, 
the idea the bow shape would increase the distance away from 
the White House, and, additionally, if there was something like 
even a gate that would have the same type of restriction--in 
other words, a truck by a certain height wouldn't be able to 
get under the gate, and it may not have the bridge that would 
impede the vista somewhat, and it would have the car-type 
traffic going through, and the idea that they had looked up was 
that with cars a bomb of--it would limit the size of the bomb, 
which would then limit the potential blast possibilities, and 
that would somewhat curb it.
    I had asked if they had met with the Secret Service on 
that. They were going to. And I would like to be able to also 
present that information to you.
    I think the gist of your question is, if there were 
automobiles, there is a possibility that the safety and 
security of the inhabitants of the White House would be 
protected.
    Mrs. Morella. We'd appreciate having that information.
    Ms. Norton. Yes. That's the question I'm getting at, and I 
can understand that without experts here it is hard to relate 
to that question.
    To the extent that your experts could provide for the 
record an indication of whether they think that cars could 
carry explosives sufficient to do significant damage to the 
White House, it would be helpful for our record.
    Ms. Cropp. Thank you, Madam Chair.
    Mr. Dole. We'll do that.
    Mrs. Morella. The gentlewoman's time has expired. We gave 
her a little longer because the questioning was so good and it 
was important to have it responded to.
    Mr. Platts, pleased to recognize you, sir.
    Mr. Platts. Thank you, Madam Chairwoman.
    Again, I just want to first thank all three of you for your 
testimony and your efforts, not just in this issue, but with 
numerous issues across the spectrum of trying to have our 
Nation's Capital be a wonderful place to live, to work, to 
visit.
    In reference to the chairwoman's question or comment about 
citizens raising concerns, with a brother and his family who 
live and work here in the District, I can tell you personally I 
have been lobbied by a resident of the District, even as 
Congressman from Pennsylvania, about the importance of 
reopening up Pennsylvania Avenue.
    Two comments, and then one question. One is I appreciate 
the Federal City Council's approach and your testimony, Senator 
Dole, in being willing to even put forward and consider options 
such as it being reopened, the avenue being reopened, but 
perhaps not from 10 p.m., you know, during the night hours to 
lessen the challenge for the Secret Service, as something, 
although you are not advocating, you're willing to consider as 
one of the balances to be made, and I think that's an 
appropriate approach in finding a consensus on the issue.
    And also, Mayor Williams, on your analogy to Ten Downing 
Street and Parliament, I think they are excellent examples. 
Having lived in London and stood probably 40 feet from the--50 
feet or so from the front door of Ten Downing Street, it is, I 
think, another good example of free countries standing tall to 
whatever threats are out there, as we need to do here in 
America.
    My one question is actually, Senator Dole, on the RAND 
Corp. study, and I guess it maybe has been addressed a little 
bit by the previous questioning about the inclusion of Secret 
Service. They, I gather, were not consulted in the security 
review that was done? That was an independent review, kind of 
making recommendations to bring forth to the Mayor, to the 
Council, and to the Congress, and the Secret Service was not 
included as far as their estimates for distances; is that 
correct?
    Mr. Dole. I think they do have a different view. I haven't 
heard their testimony, but, again, I'd say that the Federal 
City Council is a nonpartisan, bipartisan, group of people, and 
we do have the District's interests at heart. We are trying to 
help the District, but we are not--certainly we are concerned 
about the safety of the White House, the President, the 
occupants there.
    Anything you want to add to that, Ken?
    Mr. Sparks. Just that the RAND people did talk to security 
people and law enforcement people, not on the record, but they 
did talk to people.
    Mr. Platts. OK. So there were consultations as part of the 
recommendations from the law enforcement community?
    Mr. Sparks. From the law enforcement community. Yes.
    Mr. Dole. I think if anyone from Pennsylvania might want to 
lead the effort here, you have the name Pennsylvania on this 
avenue that has been closed. [Laughter.]
    Mr. Platts. We appreciate that name.
    Mr. Dole. Right.
    Mr. Platts. And all the more so my interest. We want 
Pennsylvania to be regarded in an open and free sense in all 
regards.
    And just, if I may, on a personal note, Senator Dole, thank 
you for your inspiration to me in your record of public 
service. The first campaign I became involved in as a volunteer 
was as a 14-year-old in 1976 when you were campaigning with 
President Ford on the ticket, and it was my predecessor's first 
re-election and your, unfortunately, unsuccessful effort with 
President Ford, but I was delighted to have been able to 
volunteer as a ninth grader at the local level in a 
Presidential campaign, and it helped to spur my interest as to 
why I'm here today, so I appreciate your tremendous record of 
public service.
    Mr. Dole. Thank you.
    Mr. Platts. Thank you, Madam Chairwoman.
    Mrs. Morella. Thank you.
    You have been an inspiration actually to all of us, Senator 
Dole, as has your wife.
    I just wanted to pick up on some questions.
    I'm curious about whether or not there has been any account 
of what the expenditures to follow through with the 
recommendations of the RAND report would be.
    Mr. Dole. Anything on the cost?
    Mrs. Morella. Anything on the cost. I mean, I realize in 
asking this kind of question, you know, when we talk about 
traffic and we talk about this symbol and we talk about 
pollution that obviously there is not going to be a--the 
benefits are going to far outweigh the cost, but I was curious 
about whether--nothing at this point?
    Mr. Sparks. We do not have cost estimates for that 
particular plan. We were assured in the briefing that we had 
with the Clinton administration from OMB and from the chief of 
staff that cost would not be a determinant of whether this 
avenue should be reopened or just what would be done to protect 
the President; that these were all things that could be 
managed.
    And this particular plan would not be amongst the more-
costly alternatives. If, for example, we were to get into a 
tunnel or something that would be much more expensive.
    Mrs. Morella. Right, right. Yes.
    We are going to have a vote. Too bad Eleanor won't be able 
to join us for that, but maybe she could finish questioning if 
she had any, but I thought I would finish the questioning of 
this first panel with Mr. Platts before we do go over to vote.
    I'm curious. Mayor Williams, have you found that there are 
some other streets in the District of Columbia that you think 
would have the--kind of the threat of assaults or security 
would be needed? You've got a lot of embassies in this area. 
Obviously, all the embassies are here. I'm just wondering about 
the extrapolation of guarding the White House in terms of what 
it means to these other monuments, to the embassies, to other 
areas where you may sense the need for even greater security or 
great security.
    Mayor Williams. I know that we on a daily basis have a very 
close working relationship with the Secret Service, and I want 
to commend them, because I think every American citizen 
commends them for the work that they do in protecting the 
President----
    Mrs. Morella. Yes.
    Mayor Williams [continuing]. And the First Family and other 
important officials and their other elements of their mission. 
We work closely with them.
    To me the most compelling part of the Federal City 
Council's particular, as it was stated here, is that if you 
look at their plan, the set-off from the White House exceeds 
the requirements or the criteria for U.S. diplomatic missions 
overseas, so, you know, we've already stated what we believe 
security criteria ought to be for important U.S. compounds, and 
this plan exceeds those same criteria. I think that's, to me, 
the best kind of common denominator to compare what is 
happening at the White House with other important facilities.
    Mrs. Morella. Yes.
    Senator Dole, did the Federal City Council look at other 
residences of heads of state? I'm just curious, because----
    Mr. Dole. I asked. I don't think we did. I think it would 
be a good idea if we did do that.
    Mrs. Morella. Yes.
    Mr. Dole. And I'd also like to include a statement in the 
record from Senator Moynihan that he made at a press 
conference. He has sort of been the leader in this effort, and 
he has done a lot of work on it. He had a press conference, I 
think, with the Mayor a couple of months ago. If I could 
include that statement, I'd appreciate it.
    Mrs. Morella. Indeed, without objection, that statement 
will be included. That's very helpful.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.030
    
    [GRAPHIC] [TIFF OMITTED] T5253.031
    
    Mrs. Morella. I guess my final question before I turn it 
over to Mr. Platts for his final questioning is: have you had 
any consultation with the President, Mayor Williams or 
Councilwoman Cropp, about this, President Bush? Maybe President 
Clinton if you want to go back to----
    Mayor Williams. Well, as Congresswoman Norton mentioned, 
all of us have had discussions with the previous administration 
on this at the highest levels, and I have personally discussed 
this with the President, told him our strong feelings of our 
community or the Federal City Council to reopen the avenue, and 
that we were going to be pressing forward on this issue, and he 
seemed to be open to sitting down with officials and going more 
deeply into the pros and cons of it. But seemed open--how to 
put it--sensitive to our concerns about traffic impact, 
circulation, economic impact, and all the symbolism that has 
been discussed here.
    Mrs. Morella. I know he has had a lot of other things that 
he has been looking at in terms of issues and timing and 
appointments, but we hope that the results of this hearing, 
that we will be able to meet with him and to convey what we 
have learned in this reexamination.
    Well, as I leave you to vote, I want to thank this first 
panel and hope that we can continue to work with you, consult 
with you so that we can have the reopening of America's Main 
Street.
    Do any of you have any final comments you would like to 
make?
    [No response.]
    Mrs. Morella. OK. Great.
    Mayor Williams. I just want to commend the Chair, 
Congresswoman Norton, and the committee for conducting this 
important hearing and putting us on the national agenda.
    Mrs. Morella. Yes. Thank you. Thank you all very much.
    Mr. Platts. I think we can let them go.
    Mrs. Morella. Splendid. Thank you. Then we will reconvene 
within 15 minutes.
    [Recess.]
    Mrs. Morella. I'm going to reconvene the hearing on 
``America's Main Street: The Future of Pennsylvania Avenue.''
    Again, thank you for your patience. I think because you are 
veterans and understand the ways of Congress, you recognize the 
intervention of votes and other things that may occur, like 
meetings happening simultaneously and various voting sessions 
and committees, and so I appreciate panel two and panel three 
for being so very patient.
    It is a pleasure to proceed with panel two: James Sloan, 
the Acting Under Secretary for Enforcement, U.S. Department of 
Treasury; Brian Stafford, the Director of the U.S. Secret 
Service; John Parsons, the Associate Regional Director of 
Lands, Resources, and Planning, National Capital Region, in the 
National Park Service under Interior; Richard Friedman, who is 
the chairman of the National Capital Planning Commission; and 
Emily Malino, whom I know as Emily Schryer, who is a member of 
the Commission of Fine Arts.
    May I ask you, in accordance with the committee, that you 
stand and raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will show that you've all 
responded affirmatively, and so we might now commence. Again, 
trying to maintain, like, a 5-minute time connection would be 
appreciated.
    Mr. Sloan, you can start us off, sir.

     STATEMENT OF JAMES SLOAN, ACTING UNDER SECRETARY FOR 
   ENFORCEMENT, U.S. DEPARTMENT OF TREASURY; BRIAN STAFFORD, 
DIRECTOR, U.S. SECRET SERVICE; JOHN PARSONS, ASSOCIATE REGIONAL 
 DIRECTOR OF LANDS, RESOURCES, AND PLANNING, NATIONAL CAPITAL 
REGION, NATIONAL PARK SERVICE, DEPARTMENT OF INTERIOR; RICHARD 
 L. FRIEDMAN, CHAIRMAN, NATIONAL CAPITAL PLANNING COMMISSION; 
       AND EMILY MALINO, MEMBER, COMMISSION OF FINE ARTS

    Mr. Sloan. Thank you, Madam Chairwoman.
    Before I begin, I'd just like to say that it is--I think, 
important for me to comment on the fact that perhaps by the end 
of my testimony I will still be--and I know I will be, agreeing 
with the Secret Service's recommendation that for at least the 
time being, Pennsylvania remain closed, but I think, in 
response to some of the early testimony, I'd like to at least 
leave you with the impression we don't have a closed mind about 
the issues that we are discussing here today. I think that is 
important to note.
    Mrs. Morella. You just have a closed avenue.
    Mr. Sloan. That's right.
    Mrs. Morella. That's what this is about.
    Mr. Sloan. Madam Chairwoman and members of the 
subcommittee, thank you for inviting me to testify today about 
this important matter. As the Acting Under Secretary for 
Enforcement at the Treasury Department, I have oversight 
responsibility for Treasury's law enforcement bureaus, which 
include the Customs Service, ATF, the Federal Law Enforcement 
Training Center, the Financial Crimes Enforcement Network, and 
the U.S. Secret Service. I would like to offer some general 
remarks and then introduce Director Stafford to provide more-
detailed analysis of this issue.
    As indicated earlier, in 1995 former Secretary of the 
Treasury Rubin directed the Secret Service to close a segment 
of Pennsylvania Avenue in front of the White House to vehicular 
traffic. The decision was, in part, based on recommendations of 
the Advisory Committee of the White House Security Review, 
which was the most extensive review of security of the White 
House ever conducted.
    Other factors influencing this decision included the loss 
of life and injury suffered in the bombings of the U.S. Marine 
barracks in Beirut, the World Trade Center bombing in New York 
City, and the Murrah Federal Building bombing in Oklahoma City.
    The conclusion of the White House security review was clear 
that closing Pennsylvania Avenue in front of the White House 
was the only alternative available that would protect it from 
the devastating impact of a vehicle bomb detonated in the 
avenue in front of the complex.
    The White House security review was initiated following 
several security incidents at the White House. In addition to 
the review staff, Secretary Bentsen appointed a nonpartisan 
advisory committee composed of six distinguished Americans to 
ensure that the review's work was thorough and unbiased. These 
advisors were: Robert Carswell, former Deputy Secretary of the 
Treasury; William Coleman, former Transportation Secretary; 
Charles Duncan, former Secretary of Energy and Deputy Secretary 
of Defense; General David Jones, former chairman of the Joint 
Chiefs of Staff; Dr. Judith Rodin, president of the University 
of Pennsylvania; and Judge William Webster, former Director of 
the FBI and the CIA. The review examined several security-
related incidents that occurred in the vicinity of the White 
House.
    The review was an extensive, 8-month study involving 
interviews and briefing of more than 300 individuals from over 
10 Government agencies and analysis of more than 1,000 
documents. Experts from eight foreign countries were also 
consulted, as well as three former Presidents, in order to 
bring additional perspective to the review.
    The review resulted in the issuance of a classified report 
of more than 500 pages, as well as a shorter public version of 
the report. Treasury's outside panel of distinguished experts 
concurred with all of the recommendations, including the 
closing of Pennsylvania Avenue.
    Before recommending to close Pennsylvania Avenue, the White 
House security review explored a wide variety of options in an 
effort to provide an appropriate level of security at the White 
House, yet minimize the public impact.
    After its extensive information gathering was complete, the 
review concluded that ``There is no alternative to prohibiting 
vehicular traffic on Pennsylvania Avenue that would ensure the 
safety of the President and others in the White House complex 
from explosive devices carried by vehicles near its 
boundaries.''
    Since that decision, numerous studies have been undertaken 
and many proposals offered for alternative ways to ensure the 
safety of the President and reopen Pennsylvania Avenue to 
traffic. The Secret Service continues to monitor all proposals 
and new technologies to determine whether there are any 
alternatives that would adequately ensure the safety of the 
White House complex.
    After careful analysis, the Secret Service has concluded 
that opening Pennsylvania Avenue directly in front of the White 
House would increase the threat to the White House complex 
posed by an explosive-laden vehicle. We do not believe that the 
closure of Pennsylvania Avenue has affected the public's access 
to the White House. The White House complex is still visited by 
thousands of people each day, and the area in front of the 
White House has remained open to pedestrian traffic.
    There are several designs that have been proposed that 
would make the segment of Pennsylvania Avenue in front of the 
White House a beautiful and inviting pedestrian area.
    Our job is to protect the President, the White House, and 
the people who work in the building, and the people who visit 
it. The closing of Pennsylvania Avenue is a real public safety 
issue that affects not only the safety of the First Family, but 
of all those who visit and work in the area around the White 
House.
    The Oklahoma City bombing, for example, damaged over 300 
buildings, including 10 structures that collapsed. Any 
discussion about reopening Pennsylvania Avenue should and must 
include an objective assessment of risk.
    I'm aware that the National Capital Planning Commission has 
convened a task force to review the impact of security measures 
around the White House. It is my understanding that this panel 
is comprised of representatives from the administration, 
Congress, and the District of Columbia who will work with the 
Secret Service and other agencies to review security and look 
at ways to make Federal security less intrusive.
    There may be other independent studies ongoing. I can 
assure you that the Department of the Treasury will continue to 
monitor the issue carefully, and we will assess new 
developments as they occur. The Department of the Treasury 
remains fully committed to the recommendations of the Secret 
Service regarding security measures at the White House.
    Thank you.
    Mrs. Morella. Thank you very much, Mr. Sloan. I appreciate 
your being here and the work that you have done.
    [The prepared statement of Mr. Sloan follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.032
    
    [GRAPHIC] [TIFF OMITTED] T5253.033
    
    [GRAPHIC] [TIFF OMITTED] T5253.034
    
    [GRAPHIC] [TIFF OMITTED] T5253.035
    
    [GRAPHIC] [TIFF OMITTED] T5253.036
    
    Mrs. Morella. It is a pleasure to introduce Brian Stafford, 
who is the Director of our Secret Service, with the statement 
also again that I have great respect for the dedication to the 
work that you do and want you to know that.
    Yes, sir?
    Mr. Stafford. Madam Chairwoman, thank you, and thank you 
for your ongoing support of the men and women of the Secret 
Service. I'd also like to thank the ranking member, who was 
here earlier, Representative Norton, and other members of the 
subcommittee for providing a forum for me to speak to 
Pennsylvania Avenue issues.
    I appreciate the opportunity to address the national 
security reasons that underscored the 1995 decision to close a 
portion of Pennsylvania Avenue to vehicular traffic. With your 
permission, I'd like to submit my full statement for the 
record.
    Mrs. Morella. Without objection, so ordered.
    Mr. Stafford. On May 19, 1995, then Secretary of the 
Treasury Robert Rubin directed the Secret Service to prohibit 
vehicular traffic on Pennsylvania Avenue and contiguous streets 
surrounding the perimeter of the White House. This decision 
followed an extraordinary consultation process among the 
President, Secretary of the Treasury, Attorney General, 
regarding the vulnerability of the White House and, 
consequently, the life of the President to explosive-laden-
vehicle attacks. Their support for this decision was 
overwhelming and unequivocal. The reasons supporting the 
restrictions have not changed.
    This decision was not based on speculation or alarmism. It 
was made on the recommendation of a nonpartisan, blue-ribbon 
panel of prominent Americans assembled to objectively study 
White House security. This was an 8-month study, and the most 
comprehensive ever done.
    In April 1995, this advisory panel and the Secret Service 
concluded, based upon a scientific analysis of the 
vulnerability of the White House and intelligence data, that no 
alternative to closing Pennsylvania Avenue to vehicles was 
available. Their recommendations were unanimous in that 
restrictions were the only way to protect the White House from 
catastrophic damage or complete destruction inflicted by a 
vehicle bomb.
    Having said that, opposition to the restrictions by some is 
understandable. The closure did impact the city and has made 
all of our lives a bit more inconvenient; however, the absence 
of traffic has made pedestrian access to the White House safer 
and more enjoyable for over 5,000 people who visit the White 
House on average every day.
    The Secret Service has been in the forefront of advocating 
urban design and traffic study mitigations that would 
comprehensively resolve the impact of the restrictions on our 
city and its citizens, but I emphasize that any plan that would 
permit vehicles within the currently established security 
perimeter will not protect the President and the White House 
complex from a catastrophic vehicle bomb attack.
    The Secret Service's longstanding recommendation regarding 
Pennsylvania Avenue was formulated by applying the same 
methodology and standards that we consistently apply to all of 
our threat and vulnerability assessments. I assure you that our 
decision to recommend these restrictions was not cavalier, but 
the result of years of in-depth research, analysis, and 
consideration by the most knowledgeable and experienced 
technical experts in this country.
    We have, together with our colleagues in the intelligence 
community, collectively evaluated the threat environment. We 
have looked at the explosive materials and delivery systems 
available. We have diagnosed our own vulnerabilities, and in 
the end the Secret Service drew decisive conclusions about the 
likelihood of a violent and destructive attack and what we 
could do to prevent it.
    Let me also note that I have discussed our position with 
Director Tenet of the CIA, Director Freeh of the FBI, and 
General Shelton, the chairman of the Joint Chiefs of Staffs. 
All continue to support our position on vehicular restrictions 
on Pennsylvania Avenue between 15th and 17th Street.
    Madam Chairwoman, we have witnessed a decade of well-
planned and well-executed attacks, both at home and abroad, 
against Americans and American symbolic targets--the World 
Trade Center, Oklahoma City, Al-Khobar, Saudi Arabia, the U.S. 
Embassies in Kenya and Tanzania, and the USS Cole. The mass 
casualties associated with many of these bombings is staggering 
and provides sobering evidence that devastating bomb attacks 
can and do occur.
    Since 1995, the Secret Service has worked closely with the 
National Park Service and the Federal Highway Administration to 
reconfigure the two west-bound lanes of E Street, NW., from 
15th to 17th Streets. The restoration of two-way traffic on E 
Street has significantly relieved the traffic impact created by 
the original 1995 decision.
    Congress has also recently authorized a $500,000 grant for 
the D.C. Department of Public Works to examine traffic 
mitigation around the White House in order to develop a long-
term solution to traffic patterns. These solutions include 
examining the viability of an east-west tunnel. We strongly 
support this initiative.
    As you know, the National Capital Planning Commission has 
empaneled a task force to further examine security designs 
within Washington, DC, including those currently in effect on 
Pennsylvania Avenue. The Secret Service has joined the 
Commission on this important review, and the task force is 
scheduled to deliver its recommendations later this summer. I 
assure the members of this subcommittee that we look forward to 
the perspectives the other members of the task force will 
provide.
    In conclusion, I strongly believe the original decision to 
close Pennsylvania Avenue to vehicular traffic was the correct 
action. Furthermore, I will continue to recommend that the 
portion of Pennsylvania Avenue in question remain closed to 
vehicular traffic at the present time.
    Madam Chairwoman, thank you again for this opportunity to 
speak in this forum, and I'm willing to answer any questions 
you have.
    Mrs. Morella. Thank you very much, Mr. Stafford. I, again, 
appreciate your being here. You must feel kind of like the Lone 
Ranger, but you have done it very well and I look forward to 
asking questions.
    Mr. Stafford. I'd just like to comment on the first panel--
again, Mayor Williams. We have a long history of working with 
the Mayor and will continue to do so. Senator Dole I have a 
great amount of respect for. We have been on the road a lot 
together. Right now we seem to be going down two different 
roads, but he is a wonderful American and I can't say enough 
about his efforts, also, so thank you.
    Mrs. Morella. The respect is reciprocal.
    [The prepared statement of Mr. Stafford follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.037
    
    [GRAPHIC] [TIFF OMITTED] T5253.038
    
    [GRAPHIC] [TIFF OMITTED] T5253.039
    
    [GRAPHIC] [TIFF OMITTED] T5253.040
    
    [GRAPHIC] [TIFF OMITTED] T5253.041
    
    [GRAPHIC] [TIFF OMITTED] T5253.042
    
    [GRAPHIC] [TIFF OMITTED] T5253.043
    
    [GRAPHIC] [TIFF OMITTED] T5253.044
    
    [GRAPHIC] [TIFF OMITTED] T5253.045
    
    Mrs. Morella. Mr. Parsons.
    Mr. Parsons. Good afternoon, Madam Chairman. I want to 
thank you for your leadership in bringing these hearings to 
fruition, and also providing us the opportunity to express the 
views of the Secretary of Interior.
    Pennsylvania Avenue is certainly among the world's most 
famous streets. It's 200-year history began with Pierre 
L'Enfant, who was appointed by George Washington to plan the 
Nation's Capital.
    L'Enfant's plan connected the two most important buildings 
in the Nation--the U.S. Capitol and the White House--each in 
view of the other, with a broad diagonal boulevard which was 
named ``Pennsylvania Avenue'' by Thomas Jefferson in 1791.
    While Pennsylvania Avenue serves the city of Washington as 
a major east-west transit route, it is known the world over as 
the heart of the Nation's Capital. On this avenue of Presidents 
we celebrate the election of a President every 4 years with a 
parade down the avenue and honor other national heroes and 
foreign leaders there, as well.
    Also known as ``America's Main Street,'' the avenue has 
been the parade route of many of our Nation's most famous 
public gatherings--the place where Americans from all over the 
country have come together throughout our Nation's history to 
commemorate our triumphs and tragedies or to try to influence 
their President and Representatives here in Congress.
    While it is truly more than just another city street, 
Pennsylvania Avenue also became Washington's first downtown 
street in 1801 with the establishment by the commissioners of 
the District of Columbia of city's first market at the location 
still known as ``Market Square'' between 7th and 9th Streets.
    The Center Market was followed by the city's first 
financial district, part of which survives as the Sears House 
and former Washington National Bank Building at 7th Street and 
Indiana Avenue.
    Attracting myriad of businesses since the early 19th 
century, Pennsylvania Avenue has been the key element of 
ordinary life and commerce in the District of Columbia 
throughout its history.
    The National Park Service is proud to administer parkland 
along the entire length of Pennsylvania Avenue between these 
two structures. LaFayette Park north of the avenue and the 
White House and its grounds south of it have been under the 
stewardship of the Park Service since 1933. We have managed the 
tree-lined sidewalks, parks, plazas, monuments, and memorials 
of Pennsylvania Avenue, national historic sites, since their 
creation by PADC, or Pennsylvania Avenue Development Corp., as 
a result of President Kennedy's inspiration as he traveled 
along the avenue route of his inaugural parade.
    After the Department of Treasury restricted public 
vehicular traffic on Pennsylvania Avenue in front of the White 
House, former President Clinton's chief of staff, William 
Panetta, charged the Park Service with developing a design for 
the closed portion of the avenue between 15th and 17th Streets 
for pedestrian use.
    Using a broad public involvement process and a design group 
composed of experts in architecture, landscape architecture, 
urban planning, and historic preservation, we released our 
proposed design for public review in spring of 1996. The Park 
Service has taken the planning process for the surface 
treatment of the avenue between 15th and 17th Street as far as 
we can at this point.
    As you may know the Interior Appropriations Act for the 
past several years have contained language prohibiting the Park 
Service from doing any planning, design, or construction of 
improvements of the avenue in front of the White House without 
the advanced approval of the House and Senate Committees on 
Appropriations.
    However, as the steward of the parkland on either side of 
the avenue in this location, we stand ready to assist in the 
planning and design for the area with the approval of Congress. 
In that context, you already heard that the NCPC has 
established an interagency task force to examine designs in the 
Nation's Capital, security designs in the Nation's Capital.
    I'm pleased to represent the Secretary of Interior on that 
task force, and the task force is engaged in examination of 
security designs not only around the White House but along all 
of the Federal buildings on Pennsylvania Avenue, as well as the 
monuments and memorials in the monumental core.
    The National Park Service clearly recognizes the security 
considerations of the Secret Service with respect to the 
closing of the avenue, as well as our challenge to protect such 
icons of democracy as the monuments and memorials to Presidents 
Washington, Lincoln, Roosevelt, and Jefferson.
    Madam Chairwoman, that concludes my statement. I'd be 
pleased to answer questions you may have.
    Mrs. Morella. Thank you, Mr. Parsons, and for the work that 
is done by the Park Service and Interior.
    [The prepared statement of Mr. Parsons follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.046
    
    [GRAPHIC] [TIFF OMITTED] T5253.047
    
    [GRAPHIC] [TIFF OMITTED] T5253.048
    
    Mrs. Morella. Mr. Friedman, I'm pleased to recognize you. 
You have been referred to very often throughout our hearing so 
far, particularly because of the National Capital Planning 
Commission's plan which you will be presenting to us now. Thank 
you for being here, sir.
    Mr. Friedman. Thank you, Madam Chairwoman and members of 
the subcommittee. My name is Richard Friedman. I am from 
Cambridge, MA, and I'm chairman of the National Capital 
Planning Commission.
    The Commission is the Federal Government's central planning 
authority in Washington, DC, and the surrounding region. We are 
responsible for preserving the historic urban design that has 
made Washington one of the most admired capital cities in the 
world. I am delighted to have the opportunity to report to you 
on our current efforts to ensure that security installations in 
the city's monumental core do not continue to diminish the 
unique beauty and character of our Nation's Capital.
    Earlier this month, the Commission established an 
interagency task force to evaluate the impact of Federal 
security measures around the White House, including 
Pennsylvania Avenue between 15th and 17th Streets, and around 
national monuments and Federal buildings in the city's core. We 
initiated this effort because we believe that we must find 
creative ways to ensure that our public places are respectful 
of the city's historic streetscapes, and are, at the same time, 
accessible and safe for those who live, work, and visit the 
Nation's Capital.
    Good security and good urban planning are not incompatible. 
Our goal is to make the monumental core of Washington a 
beautiful, friendly, and well-designed urban space, while 
ensuring that the safety considerations are not unduly 
compromised.
    The messages to Washington's workers, residents, and 
visitors must be of a city reflecting a Nation where freedom 
and openness are valued and a police state mentality is not 
implied or conveyed.
    All of the stakeholders concerned with security, urban 
design, economic development, and traffic management need to be 
at the table as we examine these issues in a comprehensive way. 
For this reason, we have made every effort to be as inclusive 
as possible in selecting task force members. Serving on the 
task force, which I will personally chair, are: Interior 
Secretary Gale Norton, General Services Acting Administrator 
Thurman Davis, Mayor Anthony Williams, and City Council 
Chairperson Linda Cropp. Heads of other Federal agencies will 
be invited to join the task force at critical stages of its 
work. These may include the Attorney General, the Secretaries 
of State, Treasury, Defense, and Transportation, as well as 
Directors of the Secret Service, the FBI, and the Bureau of 
Alcohol, Tobacco, and Firearms.
    Additional participants may include the Architect of the 
Capitol, the chairman of the Commission of Fine Arts, and the 
executive director of the Advisory Council on Historic 
Preservation.
    In establishing the task force, we have been working 
closely with Secret Service officials and are particularly 
gratified that they have agreed to participate in this effort. 
The excellent NCPC professional staff, augmented by outside 
consultants where necessary, will support the efforts of this 
task force.
    The Commission has already engaged a nationally recognized 
security consultant, John R. Smith of U.S. Security, to assist 
in the task force work. Mr. Smith is a former senior Secret 
Service official.
    We are also pleased that, in recognizing the Commission's 
``unique statutory role in planning for the Nation's Capital, 
including the White House,'' the House and Senate Committees on 
Appropriations recently authorized the Commission to examine 
security designs along Pennsylvania Avenue in front of the 
White House.
    The task force plans to evaluate all existing proposals, 
including the Department of the Interior's proposal for the 
development of a permanent President's Park, and the Federal 
City Council/RAND proposal that would open the avenue to 
vehicular traffic through the use of protective pedestrian 
bridges.
    We will also develop and/or be receptive to any newly 
developed approaches to this complex problem which involves 
issues of image, democracy, traffic circulation, and, 
obviously, security.
    I should note that, while the efforts of the task force 
will first focus on Pennsylvania Avenue, our interests will 
extend beyond the avenue to open space, public buildings, 
memorials, and monuments throughout the city's monumental core. 
Nowhere has the value of planning been so clearly demonstrated 
as in the development of our National Capital. We should do 
everything we can to preserve the magnificent legacy of 
Washington's historic L'Enfant and McMillan Plans.
    We expect the task force to be concerned with all aspects 
of security procedures that affect our public domain. This 
includes not only street closings, but the availability of 
curbside parking; the installation of security bollards, walls, 
and other barriers; security barriers; and the hardening of 
public buildings and monuments.
    We also expect to develop standards for beautifying 
security installations that we intend will serve as a benchmark 
for security designed throughout the Federal City--a clear 
guideline for various architects and agencies to use so that 
the city has a coordinated look and feel instead of a 
hodgepodge of divergent attempted solutions which have no sense 
of planning or continuity.
    Examples of security projects that the task force may 
examine in the near future include the permanent perimeter 
security for the Ronald Reagan and main State Buildings, the 
construction of physical perimeter and security throughout the 
Federal Triangle, and the design of security features for the 
new ATF Building at the intersection of New York and Florida 
Avenues.
    In addition, the task force is asking the Architect of the 
Capitol to join it in looking at the security for the Senate 
and House office buildings and the exterior of the Capitol, 
itself, to develop strategies for security planning.
    Although this is an area under the jurisdiction of the 
Architect of the Capitol, it is important for the design of the 
city that we adopt measures that are compatible for all of our 
important civic monuments.
    We've been gratified by the support we've received from 
decisionmakers throughout the city for this effort. 
Congresswoman Morella, you've shown outstanding leadership and 
courage on this subject by your past actions and by convening 
this hearing. Congresswoman Eleanor Norton, chairman of the 
Federal City Council, and Mayor Williams have all hailed the 
establishment of the task force as a much-needed and welcome 
step.
    I recently met with former Senator Daniel Patrick Moynihan, 
a long-time champion of renewal along Pennsylvania Avenue, who 
has praised the task force initiative and has indicated that 
the National Capital Planning Commission is the most qualified 
and appropriate organization to undertake this effort.
    The task force has committed itself to an aggressive work 
schedule and expects to make its preliminary recommendations to 
President Bush and the Congress by July of this year.
    I appreciate your invitation to be here today. I look 
forward to your continued support of the task force as it works 
to help ensure a safe and open national capital that is worthy 
of our great Nation.
    That concludes my formal remarks, and I look forward to any 
questions you may have.
    Mrs. Morella. Thank you very much, Mr. Friedman. We 
appreciate your coming here also from my home State of 
Massachusetts and the work you've done as the chair.
    Mr. Friedman. Thank you.
    [The prepared statement of Mr. Friedman follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.049
    
    [GRAPHIC] [TIFF OMITTED] T5253.050
    
    [GRAPHIC] [TIFF OMITTED] T5253.051
    
    [GRAPHIC] [TIFF OMITTED] T5253.052
    
    Mrs. Morella. I would now like to recognize with great 
fondness Emily Malino, who is a member of the Commission of 
Fine Arts.
    Ms. Malino. Thank you, Madam Chair. It is a real pleasure 
to be here today and to be part of these exploratory hearings 
on the impact of the closing of Pennsylvania Avenue, as well as 
possible alternatives for reopening it.
    I am a member of the Commission of Fine Arts. The 
Commission appreciates the opportunity to join your discussion 
on the status of Pennsylvania Avenue just north of the White 
House.
    Since 1910, the Commission has been involved in all of the 
major planning and design issues affecting our national 
capital, including the White House and surrounding area. Most 
recently, this agency, along with the National Park Service, 
the Treasury Department, and the National Capital Planning 
Commission, has spent a considerable amount of time reviewing 
the current master plan for the development of the White House, 
and we have given much thought to the future treatment of 
Pennsylvania Avenue.
    It is a source of increasing concern that not only the 
White House but many of our great civic buildings and monuments 
are taking on the look of a city under siege. The effort to 
protect our people and the buildings they work in and visit is 
understandable because the threat of terrorism is real; 
nevertheless, we cannot allow ourselves to be overwhelmed by 
fear. No matter how many measures are adopted to harden a 
building, or how many barriers we erect, or how apparently 
thorough the attempt, we can never guarantee 100 percent 
invulnerability to acts of violence.
    What we need above all else is to achieve some balance 
between these potential terrorist acts and the preservation of 
our sense of freedom and national pride, while allowing us 
access to our Government in an environment that is not derived 
from fear.
    With respect to the design of security measures throughout 
the monumental core, we have been working with many Federal and 
local agencies on measures that can afford increased perimeter 
security without destroying the architecture of the buildings 
or their setting. We have found that the introduction of 
passive landscape elements such as terraces and low walls can 
provide excellent barriers against vehicular intrusions without 
appearing overly aggressive.
    Hedges on either side of vehicle-proof fences can also 
provide a degree of protection and are more user friendly than 
bollards. Sometimes even commonplace elements--light fixtures 
and park benches, for example--can be reinforced for 
protection.
    Careful study on a case-by-case basis would be more 
appropriate than using uniform devices and techniques and would 
certainly be indicated in any study of this stretch of 
Pennsylvania Avenue.
    Regarding Pennsylvania Avenue, we realize that we must find 
a realistic way to deal with the threat of terrorism, which is 
here to stay. Therefore, a completely unregulated flow of 
traffic so close to the White House is unacceptable. After much 
study of this matter, we are convinced that there are 
reasonable ways to improve security without totally isolating 
the building and grounds from passing motorists.
    Reduced widths of right-of-way, a possible realignment of 
the avenue, the introduction of circles or other control points 
to modify the speed and volume of access are all measures that 
are feasible and can be introduced.
    Such measures in varying degrees would guarantee a much 
safer environment than existed previously, but would not shut 
off the White House entirely. The act of approaching the White 
House and experiencing that special nearness to the Presidency 
is something all of us ought to strive to preserve.
    As an architectural design consultant to the National Park 
Service, I redesigned the interiors of the three contiguous 
buildings on Jackson Place for the Bicentennial in 1976, and I 
grew to love the transparency and the elegance of the approach 
to the White House across the gardenscape.
    The Commission of Fine Arts occupied one of those buildings 
for 20 years, and commissioners and staff could sense the 
importance of the Office of the Presidency, as well as its 
approachability. This is the house of the President, not a 
palace. I can think of no more worthwhile goal than to 
preserve, protect, and improve the connection of the American 
people to their Government.
    The Commission is prepared to work with other Government 
agencies and the public to explore ideas for doing that.
    The views provided in this testimony are those of the 
Commission of Fine Arts and do not represent the views of the 
administration.
    That concludes my written testimony.
    Mrs. Morella. Thank you very much, Ms. Malino. We very much 
appreciate that.
    [The prepared statement of Ms. Malino follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.053
    
    [GRAPHIC] [TIFF OMITTED] T5253.054
    
    [GRAPHIC] [TIFF OMITTED] T5253.055
    
    [GRAPHIC] [TIFF OMITTED] T5253.056
    
    [GRAPHIC] [TIFF OMITTED] T5253.057
    
    Mrs. Morella. OK. I'm going to ask some questions. I'm 
going to start off with a preface from some articles.
    Starting up with the Washington Times, in its Wednesday, 
March 7th, issue this year carried an article in which Jonathan 
Turley, who once worked for the National Security Agency, said, 
``The unfortunate thing about Pennsylvania Avenue is that we 
have significantly altered one of the country's most important 
symbols to address the most crude terrorist attack in the form 
of a truck bomb.''
    Bruce Hoffman, chief author of a RAND Corp. study last year 
regarding the reopening of Pennsylvania Avenue in the same 
article was quoted as saying that the closing of Pennsylvania 
Avenue ``only affects one particular category of risk,'' a 
truck bomb like the one that ripped through the Alfred P. 
Murrah Federal Building in Oklahoma City in 1995.
    And Gary Aldridge, a 26-year veteran of the FBI who also 
worked for 5 years at the White House and authored the book, 
``Unlimited Access: An FBI Agent Inside the Clinton White 
House,'' has said that, ``The White House is already well 
protected and does not need a road closed in front of it to be 
safer.''
    Bearing that in mind, I guess I would first of all ask 
Secret Service: is there anything that you would allow in terms 
of opening Pennsylvania Avenue other than just the 
beautification of a pedestrian way? I mean, would you 
legitimately be open to other suggestions?
    Mr. Stafford. Very much so, and we have been since the 
closing in 1995. As you know, Madam Chairwoman, we have been 
looking at and concerned with this issue since 1983, when the 
suicide bombings happened in Beirut and 241 of our American 
Marines were killed. We started studying the vulnerabilities 
that existed at the White House at that time and continue to do 
so up until this day.
    Mrs. Morella. Yes.
    Would you like to comment on that, Mr. Sloan?
    Mr. Sloan. I am familiar with the comments of Messrs. 
Turley, Hoffman, and Aldridge, and I think it's--and each one 
of them are obviously coming at this issue from a different 
perspective.
    I think that the Secret Service, the Treasury Department, 
and perhaps everybody at this table, every stakeholder that Mr. 
Friedman talked about really desires to safely open 
Pennsylvania Avenue. I think that obviously the dispute is how 
do we achieve that safely.
    Mrs. Morella. Yes.
    Mr. Sloan. And I think it is safe to say that once 
technology has caught up with the threat to the degree that we 
can feel comfortable in opening the street, I think we are 
still going to be engaged in this debate, to include the 
comments from the gentlemen that you referred to in the 
Washington Times article.
    Mrs. Morella. And then, as you look at the fact that most 
security breaches at the White House have occurred by 
individuals who have scaled the 8-foot fences, have brandished 
guns or fired guns near the White House, so far there have been 
no incidents of a bomb-carrying vehicle on Pennsylvania Avenue, 
neither a truck nor a car, so what is the justification for 
continuing to close Pennsylvania Avenue to vehicular traffic 
when the facts show that security breaches have been performed 
by pedestrians, that there is no--there has not been any need 
demonstrated except that you look to Oklahoma City and you look 
at the World Trade Building? You are protecting against one 
kind of truck, one kind of obstacle.
    Mr. Stafford. Well, the closing----
    Mrs. Morella. You've got airplanes, it could be any number 
of things.
    Mr. Stafford. You're correct. I mean, the closing of that 
portion of Pennsylvania Avenue on the north side of the White 
House does primarily address one threat that is a huge concern 
to us, and that threat is an explosive-laden vehicle. It does 
not necessarily have to be a truck or a large vehicle.
    Mrs. Morella. Yes.
    Mr. Stafford. It can be a number of small vehicles, it can 
be a small vehicle, it can be a pickup truck, it can be an SUV, 
all of which can do catastrophic damage to the White House and 
the President and its occupants.
    So the truck is not an issue here, which is one of the 
problems we had with the RAND Commission report. It can be 
anything much smaller than a truck.
    During the White House review, there was an incident in 
December 1994 when an unstable person parked their vehicle on 
the south side of the White House and said it was full of 
explosives. He was arrested and ultimately it was not full of 
explosives.
    Back in 1974 there was an individual who rammed the gates 
and actually got to the north portico with explosives strapped 
to his body in the car.
    So there have been incidents of explosives in and about the 
White House, and it is a huge concern to us. It is just one 
threat, but we attack them individually. We have counter 
measures in place to tactically respond to just about--not just 
about, we could tactically respond to every threat, including 
the air.
    Mrs. Morella. Yes. That RAND report gives a number of 
suggestions, including one that would say go from six lanes to 
four lanes, and in all instances you are increasing that 
distance from the White House to Pennsylvania Avenue and task 
force reducing any destructive quality. Have you looked at 
those Rand recommendations----
    Mr. Stafford. We have.
    Mrs. Morella [continuing]. Individually and analyzed them? 
And you do not find--see any promise in them?
    Mr. Stafford. With that particular recommendation, no. I 
mean, what they've done is by the Jefferson Bow they've gained 
about 80 feet, which isn't very much, of stand-off distance. 
Will it help? A bit, but basically it is all determined on the 
amount of explosives and also the structural integrity of the 
target, in this situation the White House.
    The White House is a 200-year-old sandstone structure. It 
is not a newly built Federal building built to new blast 
standards.
    Mrs. Morella. Yes.
    Let me kind of share the questioning with some of the other 
witnesses.
    Mr. Friedman, it appears as though an awful lot of work has 
already been done in putting together your task force, and it 
seems to be exceedingly well represented from different areas, 
but, you know, your scope and your mission is so vast--I know 
you just read it, and I know I marked it in the book here 
because I was very impressed with what you were planning to do. 
Maybe you can tell me while I find that--but you're going to go 
through all the monuments, you're going to be going through 
other streets. There's so much that you are going to be looking 
at. Tell me about why you're doing all of it, how long it would 
honestly take, and do you have the resources to do it.
    Mr. Friedman. Well, those are very good questions. We have 
an aggressive schedule, but we think--I think we do have 
adequate resources on a preliminary basis. I think, Madam 
Chairwoman, the question is there are many proposals out there 
that have not--our view is that these proposals have not been 
looked at in a comprehensive way. One architect comes up with 
one proposal, one corporation comes up with another, etc. We 
want to try to bring all the parties together at a table or at 
a series of tables to try to look at the body of information 
that is out there and see if some consensus can be built out of 
that.
    We do have an aggressive schedule. We said we would report 
back, but not to say that in July we will have a definitive 
answer as to what exactly should be done, but I think we will 
be in a position to make preliminary recommendations or to 
recommend next steps.
    Mrs. Morella. I don't know what you mean, the entire scope 
of what the task force would do, but I did find my spot where 
you say, ``Examples of security projects that the task force 
may examine--'' maybe you mean may. Maybe the stress is on 
``may'' and it would be on definitely with regard to 
Pennsylvania Avenue, because you are saying, ``The permanent 
perimeter security for the Ronald Reagan and the Main State 
Buildings, the construction of physical perimeter security 
throughout the Federal Triangle, the design of security 
measures for the new ATF Building at the intersection of New 
York and Florida Avenues, and then also going into the working 
with the Architect of the Capitol, looking at security for the 
Senate and the House office buildings and the exterior of the 
Capitol, itself.''
    Are we going to end up being a walled city, or do you just 
see this as kind of a continuing responsibility that you have 
as the Planning Commission? And would you look at Pennsylvania 
Avenue first and focus on it?
    Mr. Friedman. Obviously, I think we will look at 
Pennsylvania Avenue first, and it hasn't been said here but 
clearly the White House--and I'm not a professional security 
person, but the White House has a different category of risk 
and attraction, if you will, to a terrorist than some other 
targets would have, so it is sort of the crown jewel of what we 
are trying to deal with.
    But I do think that it is an ongoing process. Obviously, 
when this city was originally designed terrorism was not a 
factor, and this is a--so we now are faced with retrofitting 
the city for the current environment that we live in, and I 
don't think we are going to necessarily reinvent the wheel, but 
I do think that these temporary--so-called ``temporary 
solutions'' of jersey barriers and bollards and guard booths 
and fences are really sending the wrong message, and that we 
can put together, if you will, sort of a guideline so that 
various agencies--there are so many jurisdictions that exist--
that various agencies--the GSA, the Architect of the Capitol, 
the Park Service, and others--can have, if you will, a catalog 
of acceptable ways, generic ways to deal with these issues.
    So it is a complicated problem, but I think it is very much 
worthy of understanding.
    Also, I think that technology is an area which we certainly 
don't have the resources inside our agency to deal with the 
technological answers, but at some point it may be apparent 
that high-tech approaches or innovative technology will have 
some answers here, and we may need to ask Congress or some 
other source for funding for certain--maybe a Manhattan-type 
project with the best brains in the country to sort of solve 
this problem, because in my view this present situation is 
fairly intolerable.
    Mrs. Morella. You've looked at the RAND report, then?
    Mr. Friedman. I have only looked at it. Yes, I have. We are 
convening our first meeting of our task force on Friday, and I 
believe that RAND is going to make a presentation to us on 
Friday of this week, 2 days from now.
    Mrs. Morella. I have a grave concern about paralysis by 
analysis and that, you know, maybe we'll never get anything 
done because we'll keep setting up task force or groups to 
study and look at it, and in the meantime, as I have mentioned 
before, we've got all these other Federal buildings, too, that 
have not had the barricade that Pennsylvania Avenue has had.
    I was going to ask you about the technology. You think that 
it is not here now, then. And I would also ask the Secret 
Service if, Mr. Stafford, you would like to comment on that, on 
the technology.
    You know, yesterday somebody handed me--I wish I brought it 
with me--it looks like a piece of wallpaper, and it is 
bulletproof. It just seems to me technology is moving so fast 
that there are all kinds of possibilities that may be out 
there, if either of you would like to comment.
    Mr. Friedman. Well, I'm not a technical person and I'm not 
a security person. I do think that there are--that we hope that 
comes out of this, and maybe publicity would help this. Some of 
these programs that are less obtrusive than--somebody said an 
1850's solution.
    By the way, with respect to your paralysis for analysis or 
by analysis comment, or whatever, that's not our goal here. We 
really want to be quite expeditious.
    Mrs. Morella. We certainly want you to be and look forward 
to working with you on it.
    Again, I'd like to certainly find out when you think you 
would have the Pennsylvania Avenue facet of that task force 
report that would be completed. I don't know whether you want 
to give me any kind of a date for the record or not.
    Mr. Friedman. Well, we've said we would report back in 
July.
    Mrs. Morella. Yes.
    Mr. Friedman. And, by the way, in addition to--one of the 
other issues here other than closure or opening, I think also 
it is incumbent upon us to study, to the extent that we can, 
the possibility of making the White House or other buildings 
less susceptible to bomb-laden attack by strengthening those 
buildings in some manner, so I think that's another area that 
we should be looking at.
    Mrs. Morella. Yes. Right.
    Mr. Stafford, I didn't give you a chance to comment on 
technology.
    Mr. Stafford. Yes, Madam Chairwoman, we've looked at every 
technology that exists today. We have engineers, we have 
chemists, we have physical security specialists that sit on 
every interagency technological group in this country, and 
nobody has yet come forward with any technology that will 
mitigate the concerns that we have.
    We continue to look. We hope that there will be something 
some day that will, but to date we have not found anything. 
We've contracted with outside laboratories and, again, nobody 
has found any technological fix to this situation.
    Mrs. Morella. Yes. Well, this is supposed to be a temporary 
fix, the closing of Pennsylvania Avenue, and that's one of our 
concerns, and the reason for this hearing is to make sure that 
``temporary'' does not translate into ``permanent,'' and it is 
time, with our advances, to----
    Mr. Stafford. Well, if I could respond to that just 
briefly----
    Mrs. Morella. Please.
    Mr. Stafford [continuing]. On the temporary portion, you 
know, I think Ms. Malino would corroborate this. If you go back 
into the 1700's with L'Enfant's original plan, that plan did 
not call for a road in front of the White House. It called for 
a pedestrian plaza. If you look in the early 1960's a famous 
architect that designed LaFayette Square was commissioned by 
Jacqueline Kennedy. He recommended to close Pennsylvania Avenue 
and to create a pedestrian park to give American citizens 
actually more access to the White House. He also proposed a 
tunnel underneath to accommodate the traffic issues. We would 
very much support that.
    Mrs. Morella. That's going back, and not back to the 
future. I can--you know, there are people who could tell you 
when the Rockville Pike was not a pike, was not even a road, 
was simply a place where adventurous people might walk to go 
out into the wilderness. But I appreciate your comment.
    Let me ask you about what would happen with this 
commission, Mr. Friedman. How are you going to arrive at 
conclusions? What is going to be the method that you're going 
to arrive at decisionmaking, consensus decisionmaking, the 
process?
    Mr. Friedman. I think that it is not so complicated. I 
think that we are going to have--going to spend 20 days as you 
are spending today hearing every idea that we can hear, with a 
diverse group of people representing every interest group in 
this particular issue, and hopefully there will be dialog and 
some clarity that will come out of this.
    There are a lot of people who independently have looked at 
this, at these things, but I don't think there has been, at 
least in my perspective, a coordinated view. So I think what we 
hope to do--maybe it is a fantasy, but my hope is that, by 
having a series of intensive meetings, as many as we have to 
have, convening as many experts as we need, and listening to 
every idea, that there will be bits and pieces and things that 
come out of various ideas, and some people will see some 
flexibility in their pre-conditions and we'd come at this with 
a completely open mind. And we may have a deadlock at the end 
of 4 months, but hopefully we'll have--we'll shed some more 
light on the issue and be able to come up with some clear 
recommendations. They won't be perfect, but they will be as 
good a job as we can do professionally.
    Mrs. Morella. Let me just ask Ms. Malino, you are looking 
at the concept of opening Pennsylvania Avenue, too, aren't you? 
It's not just beautification and making sure that it is 
artistically arranged or configured?
    Ms. Malino. Exactly. What we are hoping is that--there are 
several plans, as you are aware, and all of them try to 
preserve security primarily, but within the challenge to make 
the security measures really un-terrifying to pedestrians and 
drivers of small vehicles.
    And we've looked--at the Commission we've looked at a great 
many technological improvements that would enable us to do just 
that. Technology is really racing along and giving us a lot of 
really helpful suggestions on how to combine security with good 
design.
    For instance, surveillance devices can now be encapsulated 
in flagpoles or signs, building signs, so that nobody would 
ever know that they are there. They are actually the size of a 
playing card.
    There is increased efficiency in lighting systems that 
enable you to throw huge beams of light in a very discreet and 
finite way that don't just flow out all over the landscape but 
pick out what you want that beam to illuminate.
    And, of course, improved computerized communications that 
make it possible to verify credentials of people at check 
points, just through flashing a scanner across their license 
plate, for instance, or across their driver's license.
    So that I think that there are many ways that the 
technology could be improved to lessen the threat of terrorism 
at the same time as acting together in a coordinated way to 
improve the design of any anti-terrorist security provisions.
    Mrs. Morella. Very good points with regard to technology, 
and I know that, you know, we're all considering it. It just 
seems to me that the barrier on Pennsylvania Avenue is geared 
toward massive truck with massive explosives, and not really 
other kinds of threats over which we have no real control at 
this moment.
    There is also a concern about it being kind of a self-
fulfilling prophecy. I mean, if you start having people fearful 
of Pennsylvania Avenue, perhaps you might even inspire in a 
sick mind the idea that something should be done, rather than 
keeping it open as is true democratic spirit.
    Well, I'm going to give you each one moment if you would 
like to make any final comments.
    Other members of the committee are submitting questions. 
Some have been submitted to me to put into the record for them, 
and so if you do get questions I hope you would be willing to 
respond. Thank you.
    Mr. Sloan, would you like to make any parting shots?
    Mr. Sloan. I think the hearing is clear. In fact, I intend 
to stick around for the next panel. I'm anxious to hear first-
hand of the impact that the panel members I anticipate will be 
discussing.
    But I think all of this points out and helps us to 
recognize the dilemma that we face in law enforcement all the 
time, and that's----
    Mrs. Morella. Yes.
    Mr. Sloan [continuing]. The issue between security and when 
security bumps up against the concerns that the first panel, 
this panel, and the third panel are going to articulate. It is 
a dilemma we all face in law enforcement every day, and I think 
the hearing has pointed out that it is not a dilemma easily 
overcome.
    Mrs. Morella. I thank you Secretary Sloan. I thank you for 
your presentation, your attitude.
    Mr. Stafford--Director Stafford.
    Mr. Stafford. I would just like to add, Congresswoman, that 
the Secret Service is and always has been extremely sensitive 
to the inconveniences, in this case to the District of 
Columbia. Every day we look for balance in what we do between 
total access and total isolation to the person or the facility 
that we are trying to protect, and it is a balancing act for 
us.
    I would very much agree with many here today that said that 
it is unsightly. It is. I don't like the way it works, the way 
it looks as a Secret Service agent. I don't like the way it 
looks as an American. But there is a fix to that, and I think 
there is some evidence that it can be very attractive.
    We've looked and we've worked well with the District and 
with Federal Highway on the south side of the White House. It 
is starting to become a bit more appealing. Within 18 months it 
will be extremely attractive and look a lot like what Ms. 
Malino has described.
    I have one other comment. There was a comment mentioned. 
Congressman Knollenberg mentioned something about economic loss 
in his original comments. And, again, I can't speak to the 
economic loss nor do I think too many can speak to what that 
loss is to the District. What I can speak to, though, is what 
the loss would be if a bomb goes off at Pennsylvania Avenue. 
And if you use Oklahoma City again as an analogy, there were 
300 buildings destroyed, 10 devastated, 168 men, women, and 
children killed, and over $700 million lost. That's not a 
guess. That's what happened in Oklahoma City. That can happen 
on our Main Street, also, if it is opened back up.
    Thank you.
    Mrs. Morella. Have you discussed your point of view with 
the President?
    Mr. Stafford. I have.
    Mrs. Morella. You have? You have. Yes. What did he say? 
[Laughter.]
    Mr. Stafford. On which occasion? [Laughter.]
    No, he listened and was noncommittal and said he would 
continue to listen to all the issues before he made a decision.
    Mrs. Morella. Splendid.
    Mr. Parsons, I didn't ask you any of the questions. I just 
know that the Park Service does a terrific job, and you do.
    Mr. Parsons. Thank you.
    Mrs. Morella. And if you'd like to offer any comments----
    Mr. Parsons. You know, I think we should look at this whole 
thing in a historical perspective. I'm sure we're all aware of 
the obsolescence of so many of the defense systems that we've 
generated in this country over the centuries. The Civil War 
forts that protected this city are now parkland. The 
fortifications that laced the East Coast during the civil war, 
those stone forts like McHenry and brick forts like Pulaski 
were rendered useless.
    I mention that only in the context that this is, too, a 
temporary situation. ``Temporary'' is the wrong word to use in 
Washington, but I think we ought to be very cautious that we do 
not overreact and build something or create something that 
deals with this particular threat. I think that is your point 
as to the fact that we're dealing with these explosive-laden 
vehicles at the moment and in 20 years it may be something very 
different.
    I think that's the import of the task force, that it will 
be looking at solving this in a temporary way, a sensitive way, 
an aesthetic way, but not precluding options for future 
generations.
    Mrs. Morella. Yes. Thank you, Mr. Parsons. I appreciate 
that.
    Mr. Friedman, I hope we didn't put you under fire. I wanted 
to ask you those questions about the task force and appreciate 
the thoroughness of the plan.
    Mr. Friedman. Thank you.
    I have a fear that there is an existing great polarity 
between sides here; that there are people who say, ``Open it,'' 
people who say, ``Leave it as it is.''
    I think that what we've got to do is to encourage everybody 
to stay flexible and to stay open-minded about this for the 
short term. I don't think that at the end of this process 
there's going to be any absolute black and white answers. 
Obviously, any solution has tradeoffs. But I do believe that 
any--almost any--solution is better than the present situation. 
The present situation, in my view, is intolerable. It is 
undemocratic, and gives the wrong message.
    So that whether we end up with parks or streets or whatever 
the solution is, we've got to get there, get there fast, and 
get there--you know--because this debate could go on forever 
and ever, and I think that would be very destructive.
    Thank you, Madam.
    Mrs. Morella. Yes. I agree with you. When you talk about 
the polarity, it is very heavily weighed on one side in terms 
of opening Pennsylvania Avenue, but try to achieve what Mr. 
Stafford has said, that word ``balance.'' But I think everybody 
wants to open Pennsylvania Avenue.
    Thank you.
    Ms. Malino.
    Ms. Malino. I'd just like to say, in sum, that the White 
House is really more than a Federal office building in the eyes 
of the public. It is more than a monument. It is really so 
symbolic. It is unique. Therefore, I think that we have to use 
the considerable talent that has already been assembled to 
consider this, to come to a conclusion that perhaps will never 
be replicated in any other situation. It will be a unique 
solution to the security problem, not just reviving our old or 
even current ideas about security, but looking ahead to find 
the best possible ways to secure the White House, but within 
the boundaries of keeping it intact as this wonderful symbol of 
our Nation for everyone who comes to visit us here in the 
District.
    Thanks.
    Mrs. Morella. Thank you.
    Mr. Platts, I recognize you, sir, for any questions or 
comments you'd like to make.
    Mr. Platts. Thank you, Madam Chairwoman.
    I just want to actually apologize. As a new Member, I'm 
trying to still learn how to be in six places at once and 
working at it, and, although I missed your testimony, I do 
appreciate your appearing here and will certainly be looking at 
your written statements for your insights into this issue and 
the importance of us doing a good job by the American people 
and by the President and the First Family and how we find a 
balance on this issue.
    Thank you.
    Mrs. Morella. Thank you, Mr. Platts.
    Again I want to thank the panel for waiting, going through 
our three votes, the questioning, for being here, being 
prepared, and for the work that you have done and for the work 
that you will be doing to open Pennsylvania Avenue.
    Thank you all very much.
    The full committee will actually be getting copies of the 
hearing testimony, so they will be able to peruse it. Thank 
you.
    Now the third panel. This is the panel that should each get 
medals for waiting so long, although I think you are all pros 
so you know what happens here in Congress about length of time 
from the first panel to the last.
    We have Richard Monteilh, president of the District of 
Columbia Chamber of Commerce. Thank you for being here, Mr. 
Monteilh. John Kane, who is actually my constituent, who is 
chairman of the Transportation and Environment Committee of the 
Greater Washington Board of Trade. Thanks, John, for waiting 
around, too. Albert Butch Hopkins, Jr., who is president of the 
District of Columbia Building Industry Association. We 
appreciate your presence. And J. Guy Gwynne, president of the 
District of Columbia Federation of Citizens Associations. Thank 
you, sir. And William N. Brown, president of the Association of 
the Oldest Inhabitants of D.C., and he's no example of that 
when you look at him. He's not one of the oldest inhabitants. 
It has to do with, I guess, five generations, or whatever.
    It is interesting, because you're all, like, presidents, 
and so I am very impressed. So if you would stand and take the 
oath for the record, raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. All right. And the record will show an 
affirmative response.
    Again, proceeding, Mr. Monteilh, although you waited a long 
time you did hear all the other testimony, so you can respond 
and refute in any way that you desire.
    Thank you.

STATEMENTS OF RICHARD MONTEILH, PRESIDENT, DISTRICT OF COLUMBIA 
 CHAMBER OF COMMERCE; JOHN M. KANE, CHAIRMAN, TRANSPORTATION & 
   ENVIRONMENT COMMITTEE, GREATER WASHINGTON BOARD OF TRADE; 
  ALBERT BUTCH HOPKINS, JR., PRESIDENT, DISTRICT OF COLUMBIA 
FEDERATION OF CITIZENS ASSOCIATIONS; J. GUY GWYNNE, PRESIDENT, 
   DISTRICT OF COLUMBIA FEDERATION OF CITIZENS ASSOCIATIONS; 
    WILLIAM N. BROWN, PRESIDENT, ASSOCIATION OF THE OLDEST 
                      INHABITANTS OF D.C.

    Mr. Monteilh. Thanks for the opportunity, Chairwoman 
Morella, and for the opportunity to appear before you today.
    I am president Richard Monteilh, president of the District 
of Columbia Chamber of Commerce. It is my pleasure to appear 
before you today to testify concerning the importance of 
opening the District's business community, the importance to 
the District's business community of opening Pennsylvania 
Avenue.
    The D.C. Chamber of Commerce is a primary representative of 
the Washington, DC, business community. Our 1,200-plus members 
include both K Street corporations and neighborhood corner 
stores. The market these businesses serve may be within walking 
distance or may be worldwide, but they share a need for the 
city to be open for business.
    For this reason, the D.C. Chamber strongly supports the 
reopening of Pennsylvania Avenue. The District of Columbia is 
working hard to earn a reputation as a city which is open to 
business. The business community has worked in support of the 
D.C. Council's efforts to rework our tax structure to bring the 
District into tax parity with surrounding jurisdictions. The 
District's new Economy Transformation Act creates incentives to 
attract high-tech startups to the center city, and a spate of 
legislation last summer aims at making the city a center for 
the insurance and financial services industries.
    The mayor has launched major initiatives, both along 
Georgia Avenue Corridor and east of the Anacostia River, 
intended to bring new enterprises and residents to those 
sections of the city. Efforts to return major retailers back to 
the District are also bearing fruit.
    The success of these initiatives is reflected in the city's 
new economic vitality. Last year the District added 19,000 
jobs, according to the Bureau of Labor Statistics, the highest 
number ever in a single year.
    Our downtown class A vacancy rates hovers under 2.8 
percent. New commercial construction startups during 1999 in 
office and retail space, alone, topped 2.5 million square feet.
    While this new vitality owes much to the careful 
stewardship of Mayor Williams and the re-energized D.C. 
Council, it is built on effective use of the District's natural 
assets. Important among these facts, that we are the hub of the 
metropolitan area. As traffic conditions in the suburbs have 
worsened, we here in the District have promoted our central 
location. Businesses which locate in the District have ready 
access to the Federal Government and to other key institutions 
housed here. If the District's current economic vitality and 
growth is to be sustained, it is critical that this city become 
more, not less, accessible. The closure of Pennsylvania Avenue 
significantly undercuts freedom of movement in central 
Washington. It is difficult to argue downtown convenience to 
prospective enterprises willing to locate to our town.
    The closing has harmed the District in another way--by 
sending out an image of the city as an armed camp. Hospitality 
and tourism is one of the city's core industries. We attract 
more than 21 million visitors each year. It is critical to the 
economic health of the city that we continue to build tourism; 
yet, images of concrete barricades and guardhouses send the 
message that Washington, DC, is not safe or a hospitable place 
to visit.
    The Washington business community fully supports adequate 
safety precautions for Federal Government centers located here, 
but we do not believe that any valid policy purpose can be 
obtained by building a fortress around 1600 Pennsylvania Avenue 
or shutting down whole areas of the city in hopes of 
guaranteeing 100 percent security.
    It is the Chamber's position that, with proper 
reconfiguration, it is possible both to open America's Main 
Street and to preserve the high-level security in this area.
    As a spokesperson for the local community, let me first 
correct the notion that Washingtonians and others who use the 
city have gotten used to the inconvenience that Pennsylvania 
Avenue disruption has caused. Some who argue for continuing the 
avenue closing suggest that, given how bad the Washington area 
traffic is, one more street closing won't make a difference. I 
assure you that Washington businesses continue to feel this 
inconvenience sharply on a daily basis.
    Data collected by Washington, DC, Federal City Council 
demonstrate the problematic impact of the street closing, which 
has separated our oldest central business district west of the 
White House from the new offices, restaurants, and cultural 
centers on the east. The data shows that before 1995 closing, 
nearly 29,000 vehicles a day crossed Pennsylvania Avenue in 
front of the White House. The closing has displaced this 
traffic to H, I, and K Streets on the north or Constitution 
Avenue on the south. This has resulted in increased traffic 
volume on these routes of between 30 and 50 percent. Needless 
to say, this has significantly worsened the flow of east-west 
traffic in our downtown, increasing travel times and 
congestion.
    In addition to cost to businesses, such as the disruption 
of customer traffic, increase in delivery charges, or loss of 
employee productivity due to longer commuting times, the 
closing of Pennsylvania Avenue has imposed real costs on 
District government. Direct losses resulting from reduced 
parking meter and ticket revenue, as well as higher Metro Bus 
capital expenses due to service rerouting, are estimated in the 
Federal City Council study at more than $460,000 a year. The 
same study cites $728,000 in parking meter losses since 1995.
    An additional $1.5 million is the cost to the Metro Area 
Transit Authority to reconfigure some of its sites.
    The Chamber has reviewed some of the suggestions which are 
before you today, namely those presented by the Federal City 
Council for re-engineering Pennsylvania Avenue. If implemented, 
these plans will both provide security for the area and permit 
the reopening of the street.
    So long as it remains closed, Pennsylvania Avenue imposes 
significant cost to the Washington business community and on 
the local government. It sends the wrong message about the kind 
of city we are, the kind of Nation we are committed to be.
    The success of this subcommittee in formulating a plan 
which will permit Pennsylvania Avenue to reopen will be a 
significant contribution toward strengthening the relationship 
between Congress and the local community to benefit the city, 
as a whole.
    The Chamber strongly supports your efforts to implement 
this plan.
    Thank you.
    Mrs. Morella. Thank you very much, Mr. Monteilh. We will be 
asking you questions after we hear the testimony from the 
others.
    [The prepared statement of Mr. Monteilh follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.058
    
    [GRAPHIC] [TIFF OMITTED] T5253.059
    
    [GRAPHIC] [TIFF OMITTED] T5253.060
    
    Mrs. Morella. It is a pleasure to recognize Mr. Kane for 
his statement on behalf of the Board of Trade.
    Mr. Kane. Thank you, Chairwoman Morella and members of the 
subcommittee.
    My name is John Kane. I am chairman of the Greater 
Washington Board of Trades Transportation and Environment 
Committee. Founded in 1889, the Board of Trade is the regional 
chamber of commerce for the greater Washington area. We have a 
long history of working to improve our region's quality of 
life. In fact, one of our first projects was to resurface the 
dusty roads in the District of Columbia.
    I also, during my day job, run numerous transportation 
businesses which have lot of those nasty trucks, limousines, 
and buses that were referred to earlier. I'll speak to that 
later during the Q and A session, if I may.
    I'm here to speak in support of reopening Pennsylvania 
Avenue, America's Main Street, and its symbolism of freedom, 
openness, and access to Government. Closure of Pennsylvania 
Avenue has adversely impacted the mobility of District 
residents, suburban commuters, tourists, and visitors who 
either work or visit sites in the surrounding area. 
Unfortunately, these same vehicles are now diverted to other 
city streets, impeding traffic and burdening these streets with 
additional congestion.
    We recognize the transportation needs being generated by 
the ongoing revitalization of the District of Columbia. There 
is now new construction. There is now renovation to existing 
buildings, and there are revitalization of neighborhoods.
    The Metropolitan Washington Council of Governments 
forecasts that employment in the District of Columbia will 
increase by 74,000 between 2000 and 2010. Additionally, the 
District will add 40,000 new residents over the same period. 
The declines witnessed during the 1980's and 1990's have 
clearly been reversed.
    Keeping closed one of the major arteries in one of the 
District's major employment corridors will only exasperate our 
existing congestion problem.
    The business community recognizes that the safety of the 
President must be the top priority. We believe, however, that 
there are more appropriate alternatives under study that would 
sufficiently mitigate potential security risks without shutting 
down the Nation's Capital piece by piece.
    Finally, at the broader symbolic level the prudent 
reopening of Pennsylvania Avenue is needed to maintain the 
openness of our Government and institutions. The continuing 
slide toward a fortress of fear witnessed over the past decade 
is contrary to what America stands for. Well-known Washington 
architect, Arthur Cotton Moore, commented, ``We have just 
delivered the terrorists their first victory'' when the White 
House was ringed by sand trucks and large concrete planters 
following threats from Libya.
    The Bush administration has indicated its support for 
reopening Pennsylvania Avenue. Congresswoman Norton has 
introduced a resolution urging its reopening, as has the 
Council of the District of Columbia and the Metropolitan 
Washington Council of Governments. The Greater Washington Board 
of Trade joins these bodies and representatives here today in 
urging your support for reopening Pennsylvania Avenue.
    Thank you.
    Mrs. Morella. Thank you, Mr. Kane. I will give you a chance 
during the Q and A to respond to the trucks and dirty roads and 
whatever.
    [The prepared statement of Mr. Kane follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.061
    
    [GRAPHIC] [TIFF OMITTED] T5253.062
    
    [GRAPHIC] [TIFF OMITTED] T5253.063
    
    [GRAPHIC] [TIFF OMITTED] T5253.064
    
    [GRAPHIC] [TIFF OMITTED] T5253.065
    
    Mrs. Morella. Mr. Hopkins, Albert Butch Hopkins, Jr., 
delighted to have you here, sir. We recognize you.
    Mr. Hopkins. Thank you, Madam Chairperson.
    Good afternoon, Madam Chairperson and congressional 
personnel. I'm Albert ``Butch'' Hopkins, Jr., president of the 
District of Columbia Building Industry Association. Our 
membership includes more than 350 companies and organizations 
engaged in all aspects of real estate development and 
construction in Washington, DC.
    I am testifying today to express the strong support of our 
association for a thorough, even-handed re-evaluation on the 
closing of Pennsylvania Avenue. As early as June 1996, our 
association testified before this subcommittee urging that a 
task force be established to ``find alternate means of 
providing adequate security for the White House.'' With such a 
panel now in place, we look forward to public discussion of the 
issues involved and the hope that Pennsylvania Avenue will soon 
be restored as America's Main Street.
    In our view, the security threats which led to the closing 
of Pennsylvania Avenue in 1995 are real. The responsibility to 
ensure the safety of the President, his family, and the White 
House staff is clear to us, as it is to all Americans. We feel, 
however, that those threats can and should be addressed at 
lower cost to the District and in a manner more befitting the 
ideals of our Nation.
    The economic costs to our city of closing Pennsylvania 
Avenue are difficult to quantify with precision, but they are, 
nevertheless, real. In blocking this major east-west corridor, 
the closing has effectively split downtown D.C. Cross-town 
access has become so difficult that many simply avoid the 
attempt. The result, the convenience of proximity and doing 
business in the city has been compromised.
    Over the years, since the closing of Pennsylvania Avenue, 
the MCI Arena, the Ronald Reagan Building, and other major 
downtown developments have come on line. A new convention 
center is now under construction, but the full promise of those 
developments for a revitalized District I would submit is also 
compromised by a divided downtown.
    Beyond the tangible cost to our city, there is another 
larger cost that applies, one also difficult to quantify, 
perhaps, but also very real in its impact. I refer here to the 
symbolic cost we pay as a society for installing concrete 
barricades across Pennsylvania Avenue in front of the White 
House.
    In one sense, that cost represents a tribute to be paid to 
terrorists, but is a payment, therefore, we should make only 
reluctantly when no responsible alternatives exist.
    We believe the proposals put forth by the District's 
Federal City Council to reopen Pennsylvania Avenue with 
restricted access for larger vehicles and with increased 
separation from roadway to White House offer a practical and 
responsible alternative for White House security. Other 
architectural plans have been proposed to achieve the same 
purpose. Taken together, they would seem to provide a very 
useful starting point for considering responsible approaches to 
reopening Pennsylvania Avenue. They would also seem to provide 
an opportunity to reduce that larger symbolic but important 
cost to our society.
    Our association, task force, urges the Congress, as 
participants in the White House security review process, to 
take a broad view of the issues involved, one that adequately 
addresses security risks but also fully considers all the 
practical options for managing the risk.
    Obviously, the final decision on the status of Pennsylvania 
Avenue is the President's. The security review now underway 
will hopefully help the President make the right decision.
    Thank you, Madam Chairwoman.
    Mrs. Morella. Thank you, Mr. Hopkins.
    [The prepared statement of Mr. Hopkins follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.066
    
    [GRAPHIC] [TIFF OMITTED] T5253.067
    
    Mrs. Morella. Now I recognize J. Guy Gwynne, president of 
the District of Columbia Federation of Citizens Associations. 
Mr. Gwynne.
    Mr. Gwynne. Thank you, ma'am.
    In addition to the D.C. Federation of Citizens Association, 
I'd just like to observe here I am a retired Foreign Service 
officer, and I have seen my share of terrorism and raids. These 
are problems of modern-day life that one deals with. I think we 
can do it.
    And then, before I start my remarks, I would like to 
request that the record include a proposed Pennsylvania Avenue 
improvement design of the prominent D.C. architectural firm of 
Franck Lohsen and McCrery. It takes the excellent Pennsylvania 
Avenue study of the Federal City Council and RAND Corp. one 
step further, in that it is for beautification as well as the 
security of the avenue. And, for the committee's information 
and at its discretion, one of the partners of the firm is here 
today and is available for comment and even a demonstration.
    Mrs. Morella. Without objection, I will have that included 
in the record, and we on the committee have all been given a 
copy of it, also.
    Who is the representative?
    Mr. Gwynne. Mr. Art Lohsen is here at your service.
    Mrs. Morella. Thank you.
    Mr. Gwynne. I'm here today on behalf of the Federation to 
add that organization's voice to the many that are calling for 
the reopening of the closed sections of Pennsylvania Avenue. 
Closing of the avenue was, in our view, an exaggerated reaction 
in the first place, following the unfortunate close-range 
bombing attack on the Federal building in Oklahoma City 5 years 
ago.
    Residents of the District, as well as the Federal and city 
governments, have had ample time now to critically evaluate the 
hasty closure of the avenue between 15th and 17th Street in 
front of the White House to all but foot traffic. This 
effectively isolates the Nation's house. Basically, the closure 
solution doesn't wash.
    This assessment and line of reasoning has been tried, and, 
as we have seen today, has been convincingly superseded, I 
submit, by proposed practical alternative solutions and by 
different points of view on how to approach Presidential and 
White House security.
    I would like to emphasize briefly two main elements in the 
situation surrounding the possible reopening of Pennsylvania 
Avenue, severed as it is. The practical element of correcting 
disrupted traffic patterns for an important part of the 
Nation's Capital and the inconvenience that current detours 
have engendered, and the equally practical proposition of the 
national symbolic importance of a reopened and freed-up 
national main street.
    Regarding the traffic disruption, the estimated 29,000 cars 
that normally used the three closed blocks in front of the 
White House have been forced onto H, I, and K Streets 
inefficiently and inconveniently. Anyone who has experienced 
the present crowding, maneuvering, and gridlock of rerouted 
traffic on these streets longs for the normal, orderly, as well 
as scenic flow of traffic on Pennsylvania Avenue.
    Commuting patterns, delivery routes, and the movement of 
clients and customers has been profoundly altered. At a time 
when the city is doing its best to attract new businesses and 
tax-base permanent residents into the city, the last thing we 
need is a permanent major cross-town traffic impediment.
    Businesses have suffered. My own bank, the major Riggs Bank 
at 15th and Pennsylvania Avenue, is a skeleton of its former 
self. Impeded customer turnover is a principal problem in the 
downtown areas served by this stretch of Pennsylvania Avenue.
    District government sources have estimated that the city 
has lost--and I heard a different figure here today--an 
estimated $700,000 to $800,000 in revenue from parking meters 
now removed from H, I, and other streets. Metro reportedly has 
charged higher subsidies to the District because it has had to 
reroute its avenue buses. These instances scratch the surfaces 
of the negative impact continued closure has on the city.
    In addition, continued closure is an embarrassment to the 
country. The statement that the closed national avenue and the 
withdrawn White House conveys is the wrong one. The present 
situation creates an impression of apprehension and a bunker 
mentality and arguably is a standing encouragement, itself, to 
prospective terrorists. Rather, the White House and its 
surrounding routes should project America's longstanding 
commitment to openness. The Executive Mansion should be the 
people's showplace, not the people's bunker.
    There are several objective plans already produced by the 
non-governmental community for reasonable, safe, and even 
enhanced attractiveness for the reopened avenue. The Federation 
cites especially the excellent RAND Corp. study commissioned by 
the Federal City Council. Also, I want to note for the 
committee's attention an interesting schema that I've just 
mentioned to you of Franck Lohsen McCrery.
    In closing, the Federation endorses the earliest possible 
reopening of Pennsylvania Avenue in the areas surrounding the 
White House.
    Two, it agrees with the submitted proposals to reconfigure 
the avenue as necessary, including the Jefferson Bow, to reduce 
traffic volume and control possibly dangerous vehicles.
    Three, it agrees that traffic-calming devices and overhead 
barriers may be necessary, as well as other security devices, 
to control large vehicles.
    And, finally, it recommends that this subcommittee respond 
positively to what we believe will be an overwhelming sentiment 
for the reopening of the Nation's Main Street.
    That concludes my remarks, Madam Chair.
    Mrs. Morella. Thank you very much, Mr. Gwynne, and thank 
you for your service in our Foreign Service.
    [The prepared statement of Mr. Gwynne follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.068
    
    [GRAPHIC] [TIFF OMITTED] T5253.069
    
    Mrs. Morella. Now I am pleased to recognize Mr. William 
Brown, president of the Association of the Oldest Inhabitants. 
People have asked me about that. You've got to explain it.
    Mr. Brown. Congresswoman Morella, esteemed committee 
members, and ladies and gentlemen, I am William Brown, the 
current president of the Association of the Oldest Inhabitants 
of the District of Columbia. Founded on December 7, 1865, the 
AOI is the District's oldest continually active civic 
association. It was founded by 31 prominent citizens and 
businessmen in an effort to restore the capital's dignity 
immediately following the Civil War. At a time when the post-
war population was growing with Government workers, returning 
soldiers, and refugees, the city was plagued by lingering and 
divisive sectional loyalties. These 31 citizens were determined 
to come together to keep alive the reminiscences of the past 
history of our city and to emphasize respect for local 
government authority and national patriotism above these 
sectional differences.
    I have with me today Nelson Rimensnyder, who is a member of 
our board and the historian for the AOI. Today, nearly 300 
members strong, the AOI meets monthly to continue our tradition 
of providing our members an opportunity to share reminiscences 
of their lives in the District, together with hosting 
distinguished guests and scholars who inform of us important 
historical facts and future developments likely to impact the 
heritage and the heritage value of our wonderful city.
    Since the closing of Pennsylvania Avenue in front of the 
White House more than 5 years ago after the devastating 
destruction of the Murrah Building in Oklahoma City, the AOI 
has continued to go on record to help seek solutions to restore 
America's avenue to its original open status.
    We recognize and appreciate the U.S. Secret Service's 
concern and action to take immediate steps to better secure the 
White House; however, we now believe the time has come to 
reexamine this action and strive to restore the avenue to its 
original condition.
    Several unfortunate events demonstrated that threats to the 
safety of the President exist even with the avenue closed to 
vehicular traffic. The AOI has been a staunch supporter of the 
reopening efforts, and our past president, Harold Gray, 
testified before the National Capital Planning Commission on 
this matter at their hearings this past May.
    The AOI has supported past efforts which sought to restore 
the L'Enfant and McMillan Plans for the city of Washington. 
These have included the reopening of G Street in front of the 
Martin Luther King Memorial Library, and areas near the new MCI 
Center, which both had suffered from years of neglect since 
being closed to vehicular traffic.
    Those same sad consequences can be seen emerging in the 
areas immediately adjacent to LaFayette Square since the 
closing of Pennsylvania Avenue 5 years ago as this area becomes 
less vital because citizens find fewer opportunities to be 
there.
    The members of the AOI have followed with great interest 
the efforts of the Federal City Council, together with those of 
the Federation of Citizen Associations, Congresswoman Eleanor 
Holmes Norton, and Mayor Anthony Williams. Architectural firms 
have proposed several solutions to address the reopening of the 
avenue, while taking steps to preserve security features sought 
by the U.S. Secret Service.
    The AOI would like to see the avenue restored to its full 
open grandeur. We believe that whatever steps are taken to 
minimize risk, solutions should be sought which do not limit 
the reopening to automobile traffic only. Charter buses and 
Metro buses provide the means by which many tourists and 
residents view and enjoy the heritage resource which is the 
White House.
    A reconfiguration of the avenue as proposed by the 
architectural firm of Franck Lohsen and McCrery would provide 
this opportunity while simultaneously providing increased 
security. While truck traffic should certainly be prohibited, 
we believe to deprive tourists this view of the White House 
would be unfortunate. But please know that the Association of 
the Oldest Inhabitants of the District of Columbia continues in 
its efforts to seek the reopening of this major transportation 
artery, even if it represents less than the AOI's ideal.
    Many of our members can still recall the days when they 
used the White House grounds as a shortcut between their Foggy 
Bottom neighborhoods and the commercial enticements of the 1400 
block of F Street and other areas east of 1600 Pennsylvania 
Avenue. Its reopening may not restore fully our sense of 
security and community to those days 70 years ago, when 
children frolicked on the White House grounds, but it will 
demonstrate our determination to not be held hostage to fear, 
or, as Columnist George Will observed in May of last year, 
``Present to the world the clenched face of a bunker amid a 
hideous jumble of concrete barriers that close the avenue.''
    Thank you, Madam Chairwoman, for this opportunity for the 
Association of Oldest Inhabitants of the District of Columbia 
to testify before your committee today. We look forward to the 
reopening and restoration of this grand avenue.
    Mrs. Morella. Thank you very much, Mr. Brown.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHIC] [TIFF OMITTED] T5253.070
    
    [GRAPHIC] [TIFF OMITTED] T5253.071
    
    Mrs. Morella. You know, I was looking at this new 
Pennsylvania Avenue plan that Franck Lohsen McCrery Architects 
have presented. Could I have the representative from that 
company very briefly, briefly explain it to us?
    May I swear you in?
    Mr. Lohsen. Yes, you may.
    Mrs. Morella. Would you raise your right hand.
    Mr. Gwynne. This is Mr. Bud Lohsen.
    Mrs. Morella. Mr. Lohsen, do you swear the testimony you 
are about to give, comments are the truth, the whole truth, and 
nothing but the truth?
    Mr. Lohsen. I do.
    Mrs. Morella. Fine. Simply looking at the diagram here, I 
can't quite figure it out, so if you would just briefly----
    Mr. Lohsen. Our proposal was a reaction to the Federal City 
Council's plan which we've all seen presented here today. It 
picks up on some of the key issues, including reopening the 
avenue to vehicular traffic, but it adds other features, as 
well, which will allow increased security over even the 
existing conditions there today. It also takes the premise that 
by reopening the avenue it should be made a more beautiful 
place, even if possible, than it was before the avenue was 
closed. So we see it as an opportunity to do beautiful design 
and extremely high security in the same aspect.
    Our proposal includes guard houses at 15th and 17th 
Streets, traffic circles in front of the Treasury Building and 
the OEOB, which slow traffic and reduce the lanes from three 
down to two. In addition, the traffic circles allow rejected 
vehicles to exit back to 15th and 17th Streets without having 
to back up, which they would have to do without those traffic 
circles.
    Rather than the pedestrian bridges which have been 
proposed, we propose gates and gatehouses. That allows, we 
believe, even more flexibility. The gates can be closed or they 
can be opened. In addition, there are vehicular gates as well 
as pedestrian gates. The Secret Service would be able to close 
the entire perimeter from pedestrian as well as vehicular 
traffic, a feature which they don't have now.
    The gates would have decorative steel trusses at the top of 
them which would prevent larger vehicles from being able to 
penetrate in an assault.
    In addition, the gatehouse provides staff. We don't think 
any solution that relies on a static security feature or a 
single layer of security is going to be viable. We see this as 
a series of manned checkpoints--the gatehouses, parking spaces 
where Secret Service Suburbans can be parked, and the 
guardhouse. At each level, the Secret Service has the ability, 
through telescoping bollards which would pop out of the street, 
to stop traffic instantaneously. We believe that's the only way 
of opening the avenue, but giving the Secret Service the 
security the control that they need to be able to do their job.
    Mrs. Morella. Thank you very much. It would take a long 
time to go on Pennsylvania Avenue though, wouldn't it, by the 
time you go through the circles and the gates? But I very much 
appreciate that explanation.
    Well, my questioning is going to be a little different. You 
are the final panel. You've waited through this whole hearing. 
You have had an opportunity to hear Senator Dole and the 
Federal City Council and their plan, the RAND report. You've 
heard the Mayor talk about the adverse consequences. You've 
heard the Counsel president talk about the resolutions that 
they passed to open the Pennsylvania Avenue. You've heard the 
acting Secretary of Treasury give you a little bit of the 
history and why it is necessary that we have adequate 
precautions which would consist of keeping it closed. You've 
heard from the Director of Secret Service, John Parsons of the 
National Park Service, Richard Friedman, who is setting up a 
task force to look at Pennsylvania Avenue closing but would go 
beyond that with the security streetscape plan. And you've 
heard Ms. Malino of the Commission of Fine Arts.
    I would like to ask you--this is your chance to get in your 
comments with regard to--I have your testimony. It is in the 
record. We've all looked at it in advance of your speaking and 
appreciate your comments. I'd like to get your reaction to what 
has happened today, any reaction you have or any response you 
might have. You have all talked about--I appreciated the fact 
that mention was made of no such thing as 100 percent security. 
I have always felt that way, that we can't have a fortress 
around the White House, America's Main Street, what has 
happened throughout the world at places of international 
significance that have affected the United States, and what 
this symbolizes.
    So if you would just like to kind of in a brief, little 
fashion, tell me what is your gut reaction to what you have 
heard today.
    Mr. Monteilh. I was pleasantly surprised that the issue 
appears to be open in the minds of the Secret Service and the 
Treasury Department about alternatives. They are not stuck on 
this plan to keep it closed. They're open to options, and that 
was very encouraging. The 4-month time span that the National 
Capital Planning Commission says they are going to put on the 
recommendation for opening Pennsylvania Avenue is, likewise, 
encouraging. I think we had a chance to tell them that the 
closing of Pennsylvania Avenue is very onerous on the 
businesses, both large and small, in conducting their business 
because of the barricades that have been put up on Pennsylvania 
Avenue. It has impeded the productivity of companies. It has 
cut into their cost of doing business. It affects them in a 
deep way.
    There are lots of complaints, Chairwoman Morella, from 
businesses, large and small, about the inconvenience of the 
street opening on their daily activities.
    So what I picked up today is that we're going to get some 
movement. There is some openness there on the part of the 
Secret Service, and that's encouraging.
    Mrs. Morella. Yes. Thank you. We'll keep reconfirming with 
them their openness.
    Mr. Kane.
    Mr. Kane. My observations are that, one, when you're on the 
third panel you're probably going to have lunch here. 
[Laughter.]
    It wasn't a bad meal.
    Mrs. Morella. Sorry we didn't have it ready for you.
    Mr. Kane. You guys do OK.
    I, too, was intrigued by the commonality of belief that the 
avenue should be opened, it's just to what degree.
    I appreciate your comment of paralysis by analysis, and I'm 
afraid that's where this may head if the Secret Service--is he 
still here, by the way--don't mess with the Secret Service. 
They do great work. But I also think that it is in their best 
interest to keep that road closed. I know that President 
Clinton did not want it closed. They basically came to him and 
said, ``This is what we should do for your safety and the 
safety of your family.''
    I know that President Bush has an open mind to it. I still 
think he will listen to what the Secret Service wants. He would 
be foolish not to do that.
    So I think if we can--as Richard said, I am intrigued to 
hear that the Secret Service is open to some adjustment to it 
that would prohibit vehicles that were mentioned earlier, so 
I'm, I think, intrigued.
    Mrs. Morella. What do you think about the National Capital 
Planning Commission's task force?
    Mr. Kane. I think if you want to put something into a 
paralysis by analysis you create a task force, and then when 
they come back you create a blue ribbon panel, and then when 
that doesn't work you refer it to another committee for study.
    I would guess that they certainly need to weigh in. They 
are talented in their observations. But I would urge that that 
be done in a quick manner and not have it drag out.
    Mrs. Morella. I can see you know the ways of Washington, 
and we must be careful of those barriers.
    Mr. Hopkins. Well, Madam Chair, I, likewise, was encouraged 
somewhat to hear that the Secret Service had sort of changed 
their, I guess, position on this matter over a period of time. 
I'm not convinced, however, that they would be willing to do 
anything other than consider a tunnel to move traffic east and 
west, so I'm not--I kind of look toward--I'm a native 
Washingtonian, and I remember my father driving me past the 
White House at night so I could see how beautiful it was, and 
then, as I got older, I used to roller skate by there during 
the day.
    Mrs. Morella. You can still do that now.
    Mr. Hopkins. I can still do that. Right. And I kind of 
looked at the Statue of Liberty as you come into New York with 
the grand lady holding her arms open and welcoming people to 
our shores, and then they see the White House where we seem to 
have, all of a sudden, had that siege mentality, and we sort of 
seem to be giving up that pioneer spirit that Americans have 
had.
    Once you start chipping away at what we feel is what makes 
us uniquely Americans, you never know how we may eventually 
evolve as a people and as a culture.
    I think that makes certainly all the sense in the world to 
strive to open the avenue, and I think the RAND study 
accomplishes that and this latest presentation that I've just 
seen today probably has some good points.
    And I don't necessarily feel that the NCPC thing is going 
to get too bogged down, but my other job on a full-time basis 
is heading up the Anacostia Economic Development Corp., and 
we've certainly seen plans and plans and plans that get on the 
shelf and nothing ever happens, so I'm certainly leery about it 
to some degree, but if we can put some kind of firm time table 
on this, I think what they're proposing to do in terms of 
bringing all parties to the table and have them work openly to 
resolve this has merit, but I don't want to see it dragged out, 
just as John has spoken to.
    Thank you.
    Mrs. Morella. Thank you, Mr. Hopkins.
    Incidentally, the three of us who are here were all at the 
Anacostia Waterfront Initiative kickoff, and it was just very, 
very exciting. Maybe finally that is moving. I know 
Congresswoman Norton had been involved with that, also, from 
the beginning.
    Mr. Gwynne.
    Mr. Gwynne. First of all, thank you, Ms. Norton, for your 
initial comments. Those were right on the money, and thank you.
    And, Mrs. Morella, I would invite you, just as Ms. Norton 
has come by one of our federation banquets, you will be getting 
an invitation, as will Mr. Platts also. Being on this 
committee--I'd like to digress just a little--I hope you all 
will take more of an interest in the District of Columbia on 
the civic side, also. We cordially invite you to--and you'll 
find that it is interesting. This is the most fun group perhaps 
because of their reminiscence times.
    But I would just like to close my remarks with there's no 
such thing as complete security, for our embassies abroad, for 
the Nation's Capital, itself, as we see, or for the Capitol 
Building, that is, or for the White House. We have to just 
proceed with good sense and mitigate the danger as much as 
possible, but continue with our natural or with the normal 
national life.
    I think there is no alternative. Thank you.
    Mrs. Morella. Thank you.
    Mr. Brown.
    Mr. Brown. I think two themes that were apparent through 
all the speakers' comments today were, No. 1, not to be held 
hostage to fear and, of course, the symbolism or the negative 
symbolism that is portrayed by this area being closed down and 
a type of--how that might affect somebody as far as an 
achievement in trying to force us to become a more closed 
society.
    Another thing that I thought was interesting was the 
beautification aspects of how tawdry the area looks now and how 
some of the recommendations have included beautification 
aspects of it, as well.
    I think if you will remember, down near the--and I 
mentioned this in my remarks--by the Martin Luther King Library 
F Street or G Street was closed for a number of years and it 
became a terrible eyesore down there when that area was limited 
to--it had full access to pedestrian traffic, but it was closed 
to vehicular traffic and it became very run down.
    Another interesting thing is that Nelson Rimensnyder, who 
is retired from Government work here in the city, has some 
interesting historical perspectives on previous, I'll just say 
conflicts between the U.S. Secret Service and the building, 
buildings and permits and all in the White House area, and he 
has that summarized in a document that I would like to share or 
provide to the committee for the record, as well, if you would 
accept that.
    Mrs. Morella. Without objection, so ordered.
    Mr. Brown. You know, our group--I appreciate Guy's comments 
about our group being a fun group. I'm very sincere when I say 
we do have members that used to frolic and cut through the 
White House grounds. We have members of our group that used to 
exercise with--was it President Harding's dogs and be fed ice 
cream and cookies in the basement of the White House. These are 
terrific stories. We know that we'll never go back to those 
days of openness and all, but we think there are some plans 
that will reopen Pennsylvania Avenue.
    I would suggest that if you are concerned--it has been 
almost 6 years now since these temporary measures were put into 
effect. I would suggest that if you are concerned about 
paralysis by analysis--unfortunately, I think we may be sitting 
here 5 years from now after, you know, the one group studies it 
and provides their comments to another group and they are 
studied and shelved and restudied.
    I think one thing that might spur this on is if this 
committee would recommend to President Bush the immediate 
reopening of Pennsylvania Avenue with whatever temporary 
measures restricting truck traffic to begin with, and I think 
that might provide some impetus for the NCPC and other groups 
to work more quickly to come to some resolution.
    Thank you, Madam Congressman.
    Mrs. Morella. Thank you very much, Mr. Brown.
    I'm now going to defer to Mr. Platts--and Ms. Norton has 
agreed to that--for any comments he wants to make.
    Mr. Platts. Thank you, Madam Chairwoman, and thank you, Ms. 
Norton, for allowing me to jump in here. I apologize--running 
off to yet another meeting.
    Three quick questions, and actually, Mr. Lohsen, on your 
presentation, the checkpoints you envision, you don't mean 
every car being stopped, but just being the opportunity for 
more scrutiny as they come through; is that correct?
    Mr. Lohsen. That is correct.
    Mr. Platts. And is there a cost estimate for the 
recommendations, your design? Is there any ball park figure on 
cost?
    Mr. Lohsen. Not at this point, but I would submit that it 
is coming out.
    Mr. Platts. And on the design, itself, is there--the 
radius, you bring it in inside of Madison and Jackson Place on 
each side to line up with the driveway from the White House 
before you begin the Jefferson arch or radius. Is there a 
reason you didn't begin at Jefferson earlier to get a wider, 
larger distance?
    Mr. Lohsen. Aesthetically we considered the White House 
gates, which will be used for vehicular entry and exit to the 
White House grounds as part of the solution.
    Mr. Platts. Just seems like from a security sense there 
would be an even greater distance if we began as soon as you 
got to Madison and----
    Mr. Lohsen. Well, as I described, our solution is a blend 
between security features and aesthetics, and we--the other 
aspect, which I neglected to mention, is the fact that our 
gates and gatehouses and lighting fixtures are all derived from 
the existing White House fencing and gates. We strongly feel 
that whatever solution is applied, it should be completely 
appropriate with the surrounding buildings. It should look like 
it has always been there. And we feel that a design such as 
we've proposed has the ability of doing that.
    Mr. Platts. OK. Thank you, Madam Chairwoman, and all the 
participants for your testimony as we try to find a workable 
solution to the issue.
    Mrs. Morella. Thanks, Mr. Platts, and thank you for your 
interest and involvement.
    Congresswoman Norton, I recognize you.
    Ms. Norton. Thank you, Madam Chair. Let me apologize that I 
was called off of the campus of the House of Representatives 
altogether and had to miss entirely the second panel. I'm 
certainly pleased that I was able to at least return for part 
of this panel.
    In a very real sense, you personify what worries me most 
about the closing of the avenue, if you look at who it really 
affects. It has had an untold effect--and the Mayor used the 
word ``untold'' because I think it still is untold because it 
is very hard to quantify it. It is very hard to characterize it 
on businesses, residents that use the area.
    The interesting thing is I would bet that the greater 
effect has been on people from Virginia. Of course, this is the 
District of Columbia and if you are a resident of the District 
of Columbia on any day of the week you may find yourself in 
this area, but if you come in here over the 14th Street Bridge 
or over the Memorial Bridge, you may have to find your way into 
this area just to do work, and we've not found a good way to 
understand what this does.
    I am very interested in understanding what this does 
because we are doing it with no forethought. An incident occurs 
and you just shut it down. You don't think about alternative 
methods. The Secret Service comes through and says, ``We are 
always looking for alternatives and, of course, we never find 
any.''
    As I understand it, while I was gone you didn't attempt to 
quantify--and I can understand why--what the effect has been 
economically on the District or on business. I would ask--I 
would like our record to show more, at least anecdotally, of 
what it means to have the street closed down, more than what I 
hear from residents, more than what I hear from businesses.
    For example, do any of you have any information on the 
effect, for example, on the value of property in that area and 
rents in that area compared to rents elsewhere in the District 
of Columbia? That happens to be important to us. We cannot tax 
people from Maryland and Virginia. We can only tax people who 
do business in the District of Columbia or who live in the 
District of Columbia, so if the Federal Government wants to--
and most of the people who use that area come from around 
Virginia--if the Federal Government wants to shut down the 
avenue and depress property values relative to what you might 
expect them to be, we need to know that.
    I don't have a basis to go to the Federal Government today 
and say, ``Look, this is at least in the ball park of what we 
have lost.''
    So I would first ask if, at least on the basis of knowing 
businesses and knowing residents, you have any sense of what 
the inconvenience amounts to--and I don't mean simply from a 
quantity point of view. What does it mean to a business to be 
located where people simply went across Pennsylvania Avenue to 
get there before and now find it hard to get there from here? I 
need to hear what you may have heard, but I also need you, if 
you would, to ask--perhaps to do a survey of your own members 
so that we can vivify what this means in terms that we can make 
the President and other decisionmakers understand.
    Do any of you have any information that would lead us to 
understand what it means to an individual, what it means to a 
business to have that kind of change occur right from under 
them?
    Mr. Kane. Congresswoman Norton, I do, and I can give you a 
couple, three different examples.
    I would tell you that St. John's Church and probably Tom 
Donahue at the U.S. Chamber are quite happy, because they are 
like the folks that were one house back on the beach, and the 
beach came in and washed them out, so now they own the real 
estate closest to the water, because you basically have taken 
out all of the real estate between that H Street corridor and 
the White House that used to be there.
    There is no longer a center city, at least not from our 
perspective. One of our businesses is a commercial moving and 
storage business. There is not the vibrancy that is associated 
with the east end or the west end in that center part of the 
city any longer. People don't want to be there. It's just not 
as lively an environment.
    I would take--I would argue the point it affects people in 
Virginia more. We send probably 500 people a day into different 
assignments, whether it be driving trucks, buses, limousines, 
staff vehicles, vans, that kind of stuff, and it's pretty much 
split up a third, third, and a third--a third originate from 
Washington within the city, a third come from Virginia, and a 
third come from Maryland.
    By the bifurcation of the city, or splitting it in half, as 
they have done, it certainly does affect people in Maryland as 
to how they get to that other side of the city. Sitting on 
those one-way streets that used to be two-way, that used to 
have parking meters, it does impede their traffic.
    I would tell you that we're doing a--this may sound like an 
offshoot, but it is realistic. Jobs that we do now in the 
center or in Washington, DC, where before we used to charge a 
1-hour travel fee, whether that be for limousine, or a bus, or 
a truck to get there, we now charge an hour and 20 minutes. It 
just takes 20 minutes longer to go through that city. I mean, 
you just cannot appreciate the delay and the cost that 
businesses like ours incur.
    I would also say that, relative to the flow of traffic, 
when you--we normally spend about $100,000 a year, and someone 
mentioned earlier that $750,000 that they've lost in meter 
revenue and ticket fines. I know UPS spends about $1.2 million 
a year in tickets in the city. We spend about $100,000 a year. 
From 1996, when that road was closed, our ticket cost went up 
15 percent. Now, a lot of that is the cost of doing business 
and it is just from unloading and a loading standpoint, but 
when you begin to put barriers up to commerce--and I'm not 
talking about putting trucks on Pennsylvania Avenue, I'm 
talking about taking trucks off of H Street from the delivery 
standpoint because it is just almost impractical to make 
deliveries there. It does affect how we do our business.
    And it's not just a Virginia issue. It is a regional issue.
    Ms. Norton. Do any of the other panelists have any stories 
from their members that they could tell us?
    [No response.]
    Ms. Norton. I would ask you, if you would--and I would be 
willing to work with you to conduct--some of you have 
newsletters, some of you have employees, but it would be 
helpful, as we try to make the powers that be--it turns out 
really to be the President of the United States--I'm trying to 
look at whether or not this decision can be made collectively 
by the Congress, because I think part of the problem is that 
nobody wants to take the rap for opening it once it gets 
closed. But we're certainly not going to convince people to 
open it if they think, ``Well, so what'' if they don't know the 
real cost on real people. So I would be willing to work with 
your offices on designing your own organizations or yourselves 
on designing an appropriate survey, just so we get some sense 
of what the personal cost is to businesses and to residents.
    Madam Chair, I simply want to thank the members of the 
panel. Some of them have been waiting throughout this 
testimony. It has been a longer day than we usually have in the 
District Committee, and I certainly want to thank you for your 
testimony. I apologize that I did not hear more of it, and to 
assure you that I will continue to work on this issue until we 
get it done. We just cannot say, ``Well, so be it.'' We are 
going to get it done.
    You can help me if you go back and agree to work with me on 
ways to vivify this issue so that we all understand the harm 
that is done. When we understand the harm that is done, we will 
help find ways to get around it all. If you don't know what the 
problem is, then it is harder to think of a solution. If we 
need a better solution, you can help us get to that solution.
    Thank you very much, Madam Chair.
    Mrs. Morella. Thank you, Ms. Norton. I agree, we have to 
get it done.
    I am now pleased to recognize Mr. Davis.
    Mr. Davis of Virginia. Thank you all very much for being 
here.
    The closing has a lot of ramifications on the region and, 
of course, on the city. One is the transportation ramification, 
which you've discussed. That has air pollution ramifications. 
It has just a lot of issues that are addressed by it. But I am 
concerned about the economic ramifications to the city at 
large, and I wonder if anybody has put a price tag on this in 
terms of the economic development loss for the city and the 
region, tax base, ripple effects. Are there any--do you think 
there are any businesses that maybe decided not to come down 
because it is a little bit longer commute now? Has it hurt 
parking? I know the Riggs Bank issue. Anybody have any either 
anecdotal or scientific information on that?
    Mr. Monteilh. Congressman Davis, you know the city is doing 
well right now. We have a low vacancy rate downtown. We are not 
losing companies any more. There is, in fact, companies that 
want to move into Washington now, and it is a question----
    Mr. Davis of Virginia. No thanks to closing of Pennsylvania 
Avenue. That has nothing--I mean, if anything, that has been a 
deterrent.
    Mr. Monteilh. But what has helped us, to be honest with 
you, helped the city to revive itself is the fact that, 
relative to Maryland and Virginia suburbs, Washington, DC, is a 
good place to commute in. I mean, it is a good place to do 
business in because you can get around, and the fact that the 
roads are clogged up outside of Washington, DC, has revived--
has a lot to do with reviving our city, to be honest with you.
    The fact that Pennsylvania Avenue is closed is something 
that we have to sell around. We have to sell Washington as a 
place where you can come and get out of 3 hours worth of 
commute time if you lived here or your put your business here, 
because eventually you've got to come into the city.
    It is not necessary that everybody who lives here has to go 
out and go to Fairfax and do business, but everybody has to 
come into Washington, DC.
    Mr. Davis of Virginia. Right.
    Mr. Monteilh. So it presents an obstacle to us trying to 
sell the city that there are some places you just can't get 
around in, and that's very difficult for a town that is trying 
to revive itself right now.
    It is so important for us to have the advantage of being 
able to offer people 3 hours off their commuting time on a 
daily basis to be in the city, to have their business here, and 
to even live here as a selling point for Washington, DC, quite 
aside from the fact that the government is turning itself 
around, the mayor has now energized the government, and all 
that.
    Mr. Davis of Virginia. Well, let me ask this. Is there 
any--do you have any feel for what this has done to tourism? I 
mean, in the old days the tourist buses could go by and point 
at the White House. If you were lucky enough to get in a tour, 
you could get out and stay in line. Now you have to park off 
where you don't get the direct view. You can let them off in 
one end and spend 20 minutes and probably go around to the 
other end of the White House if you're driving. A lot of people 
could walk across it. Any idea what this----
    Mr. Monteilh. We heard testimony earlier that it could 
actually help the White House tours office in terms of 
pedestrian traffic. That's what we heard from an earlier 
testimony in terms of----
    Mr. Davis of Virginia. Yes, but that's not economic. I 
mean, that's----
    Mr. Monteilh. No, it's not helping the city at all.
    Mr. Davis of Virginia. Exactly.
    Mr. Monteilh. What we're trying to do is get people off the 
mall. The city has a tourist operation in the Ronald Reagan 
Building.
    Mr. Davis of Virginia. I'm glad that it is easier for the 
White House and more convenient for maybe people working there, 
but in terms of the economic impact----
    Mr. Monteilh. It doesn't help the city because most of 
those people who do the mall don't do the rest of the city, and 
that's--we want the people to see the White House, but when 
they see the White House or the Capitol then they generally 
leave because all the--and leave very little money on the table 
because most of the museums are free, as you all know, and so 
is the White House. The whole aim was to get people in other 
parts of the city, and that doesn't do anything for us. The 
closing of Pennsylvania Avenue does nothing to facilitate 
tourists coming to other parts of the city.
    Mr. Davis of Virginia. But basically this just makes it 
tough for--I know, from my commute, this just makes it tougher 
for people to get through the city and it just clogs up roads 
that really were not built for that purpose, and that, of 
course, has a deterrent effect on a lot of air pollution 
ramifications and the like.
    Let me just say I am grateful for the fact that you aren't 
just here whining and criticizing the decision, but are 
actually putting forward some plans into the record that ought 
to be explored, and I am moved by the cooperative attitude 
earlier that you'd like to solve this problem. Whether we can 
get there or not at this point and what the timing will be I 
think will depend on all of our collective determination to try 
to do that and move this forward as an agenda item.
    I appreciate all of you taking the time to be here today. 
I'm sorry I wasn't here for all the testimony. I have other 
committees going on. But I appreciate the chairman holding this 
hearing and all of you coming out, as well, and hopefully we 
can find a satisfactory solution.
    Thank you, Madam Chairwoman.
    Mrs. Morella. I want to thank you, particularly this third 
panel for being here almost all day, spending your time with 
us. We very much appreciated your testimony and all that went 
along with it--the experiences that you have reflected.
    I think it is time now to go beyond the words and go into 
the actions, and that's what we hope to do on this subcommittee 
with your help, so continue to keep us posted.
    Again, I thank you very much.
    I wanted to acknowledge some staff people that have worked 
very hard on this hearing. Subcommittee staff: Russell Smith, 
Rob White, Matthew Batt, Heea Vazirani-Fales, Mr. Davis' staff, 
Howard Denis and Melissa Wojak. On the minority side with 
Congresswoman Norton, Jean Gosa and Jon Bouker. Thank all of 
you.
    I want to thank the person who has done our transcripts, 
which has not been very easy to do.
    As is tradition, we will keep the record open for other 
testimony that may come in within the next 2 weeks.
    Thank you very much. The subcommittee hearing is adjourned.
    [Whereupon, at 1:40 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T5253.072

[GRAPHIC] [TIFF OMITTED] T5253.073

[GRAPHIC] [TIFF OMITTED] T5253.074

[GRAPHIC] [TIFF OMITTED] T5253.075

[GRAPHIC] [TIFF OMITTED] T5253.076

[GRAPHIC] [TIFF OMITTED] T5253.077

[GRAPHIC] [TIFF OMITTED] T5253.078

[GRAPHIC] [TIFF OMITTED] T5253.079

[GRAPHIC] [TIFF OMITTED] T5253.080

[GRAPHIC] [TIFF OMITTED] T5253.081

                                   - 

</pre></body></html>
